App. 1
United States Court of Appeals
For the Eighth Circuit
-----------------------------------------------------------------------

No. 18-1941
-----------------------------------------------------------------------

William Anderson, as trustee for the next-of-kin
of Jacob William Anderson (deceased),
Plaintiff - Appellant
v.
City of Minneapolis; County of Hennepin; Hennepin
Healthcare System, Inc.; Dr. Brian Mahoney, M.D., as
then-Medical Director of the HCMC Ambulance
Service; Shana D. York; Anthony J. Buda; Raul A.
Ramos, and John Doe individuals to be determined,
Individual Fire Department Personnel in Their Individual Capacities; Daniel F. Shively, and John Doe
individuals to be determined, Individual HCMC
Ambulance Services Personnel in Their Individual
Capacities; Mitchel Morey, M.D., Individual Medical
Examiner’s Office Personnel, in his Individual Capacity; Daniel J. Tyra; Shannon L. Miller; Dustin L.
Anderson; Scott T. Sutherland; D. Blaurat; Emily
Dunphy; Christopher Karakostas; Matthew George;
Joseph McGinness; Calvin Pham; Arlene M. Johnson;
Matthew T. Ryan, and John Doe individuals to be
determined, Individual Police Officers in Their
Individual Capacities,
Defendants - Appellees

App. 2
-----------------------------------------------------------------------

Appeal from United States District Court
for the District of Minnesota - Minneapolis
-----------------------------------------------------------------------

Submitted: March 12, 2019
Filed: August 20, 2019
-----------------------------------------------------------------------

Before SHEPHERD, ARNOLD, and KOBES, Circuit
Judges.
-----------------------------------------------------------------------

KOBES, Circuit Judge.
As the district court noted, this is a tragic case. Jacob Anderson (Jacob) died of hypothermia in Minneapolis, Minnesota on December 15, 2013. His father,
William Anderson (Anderson), brought this suit alleging federal constitutional and state tort claims against
the City of Minneapolis, Hennepin County, and several
city and county employees.1 The district court2 granted
defendants’ motions to dismiss with prejudice. Anderson appeals the dismissal of his constitutional claims,
and we affirm.

1

Because there are many individual defendants in this case,
for clarity and concision we refer to them, where appropriate, in
groups by their professional affiliations: firefighters, paramedics,
and police.
2
The Honorable Susan Richard Nelson, United States District Judge for the District of Minnesota.

App. 3
I.
A.
In the fall of 2013, Jacob was a 19-year old freshman at the University of Minnesota, Twin Cities. He
was an active member of the university community. On
the night of December 14, 2013, he attended a party
with several other students. He left around 11:15 p.m.
Jacob was discovered the next morning, lying face
down in the snow in a remote area of Minneapolis near
the Mississippi River. The passerby who found him
called 911 at 8:44 a.m. The first responders, employees
of the Minneapolis Fire Department, arrived on the
scene ten minutes later. The fire department defendants, some of whom were certified emergency medical
technicians, performed a 30-second check on Jacob’s
pulse by holding his wrist, which was frostbitten and
cold to the touch. Failing to find a heartbeat, the fire
department defendants pronounced him dead at 8:57
a.m.
Having declared Jacob dead, the fire department
defendants cancelled the ambulance and called police
to the scene. However, the paramedics had already arrived. The paramedic defendants spoke with the fire
department defendants but did not separately evaluate Jacob’s condition and left after about two minutes.
Several police officers arrived next. Shortly after the
first police defendants arrived, the fire department defendants left. The police treated the area as a potential
crime scene and notified the Hennepin County Medical
Examiner’s Office at 10:30 a.m.

App. 4
The medical examiner’s office sent two investigators to the scene. After conducting an examination of
Jacob’s body, which was still where it had been found
almost two hours earlier, the investigators called defendant Assistant Medical Examiner Mitchel Morey,
M.D. Based on the investigators’ report, Morey did not
visit the scene. Eventually, the medical examiner’s office conducted an autopsy and determined that Jacob
died of hypothermia. The autopsy listed the time of
death as 8:48 a.m. Anderson alleges that Jacob may
have in fact died several hours later, after emergency
responders had declared him dead.
B.
Hypothermia is a medical condition that occurs
when a body falls below 95 degrees Fahrenheit and
cannot produce enough heat to replace what it loses.3
App. 86. Frostbite is a medical condition that occurs
when the skin and underlying tissues freeze. App. 87.
Hypothermia and frostbite act together in ways that
often disguise signs of life and make it particularly difficult for first responders to determine whether an individual is actually dead or just in a severely
hypothermic condition. Id.
Despite appearances, individuals can make remarkable recoveries from even severe hypothermia.
3

The facts in this section, regarding the pathophysiology of
hypothermia and frostbite, are drawn, as they must be at the motion to dismiss stage, from Anderson’s complaint. See Owen v.
Gen. Motors Corp., 533 F.3d 913, 918 (8th Cir. 2008).

App. 5
App. 88. As a result, first responders are trained to
provide treatment even to apparently deceased hypothermia victims. For example, Minneapolis Fire Department standard operating procedures prescribe
that first responders “[b]egin CPR immediately when
[a] patient is found cold in a cold environment.” App.
93. The Hennepin EMS protocol specifically notes that
“clinical signs of death may be misleading” and instructs medical personnel to transport any bodies with
a temperature below 86 degrees Fahrenheit in a cold
environment to facilities prepared “for active internal
rewarming.” App. 104. Anderson alleges that Jacob
passed away because these guidelines were not followed in this case.
C.
On December 8, 2016, Anderson and his wife,
Kristi Anderson, filed a complaint in the district court
against individual responders and the entities that responded to the 911 call. The complaint listed Anderson
as the personal representative of Jacob’s estate.
On March 9, 2017, more than three years after Jacob’s death, Anderson was appointed as trustee for Jacob. On April 19, 2017, Anderson filed the operative
Second Amended Complaint, alleging four causes of action under federal law and two causes of action under
state law. The district court dismissed both state law
causes of action, finding that, under Minnesota law, the
claims were required to be brought by an appointed

App. 6
trustee within three years of Jacob’s death. Anderson
does not appeal that decision.
The district court also dismissed the federal
claims, all of which were brought under 42 U.S.C.
§ 1983 alleging violations of Jacob’s substantive due
process rights by first responders and their employing
municipalities. Although it held that a different statute of limitations governed those claims and they were
therefore properly before the court, the district court
concluded that qualified immunity barred the claims
against the individual defendants. Anderson could not
show that the individual defendants had violated Jacob’s substantive due process rights because he could
not show that the state actors had created or exacerbated the danger to Jacob, placed Jacob “in custody,” or
alleged conduct sufficiently “conscience-shocking” to
give rise to a claim under the Fourteenth Amendment.
Because the district court found no individual liability,
it dismissed the claims against the city and county defendants too.
Anderson timely appeals the federal claims advancing the single argument that the district court
erred in finding qualified immunity, because the individual defendants created or exacerbated the danger
to Jacob.
II.
Before reaching the merits of the dispute, “[w]e
begin with jurisdiction, which is always our first and
fundamental question.” Franklin v. Peterson, 878 F.3d

App. 7
631, 635 (8th Cir. 2017) (citation omitted). We review
the district court’s determination that it had subject
matter jurisdiction de novo. Am. Family Mut. Ins. Co. v.
Vein Ctrs. for Excellence, Inc., 912 F.3d 1076, 1080 (8th
Cir. 2019). The defendants claim that we lack jurisdiction because this action was not brought by an appointed trustee within three years of Jacob’s death as
Minnesota state survival law requires. See Minn. Stat.
§ 573.02, subd. 1. The district court thoroughly addressed this argument and correctly concluded that it
(and we) have jurisdiction.
As the district court explained, we look to Minnesota’s survivorship statute only to determine who can
bring a § 1983 action on behalf of a deceased individual. Estate of Guled v. City of Minneapolis, 869 F.3d
680, 683 (8th Cir. 2017). We do not incorporate other
rules—like the limitations period—that are found in
that statute. Rather, as we have held several times, the
limitations period for all § 1983 actions in Minnesota
comes from the state’s personal injury statute and is
set at six years. See, e.g., Egerdahl v. Hibbing Cmty.
Coll., 72 F.3d 615, 618 n.3 (8th Cir. 1995); Minn. Stat.
§ 541.05, subd. 1(5). We have jurisdiction because Anderson brought this suit within six years of Jacob’s
death.
III.
We review the district court’s grant of a motion to
dismiss based on qualified immunity de novo, taking

App. 8
the facts as alleged by the plaintiff. Groenewald v. Kelley, 888 F.3d 365, 370 (8th Cir. 2018).
A.
Anderson’s claims against the various individual
defendants in this case depend upon slightly different
factual allegations, but they are essentially one claim:
the defendants, by prematurely declaring Jacob dead
and therefore cutting off possible aid, caused his death
in violation of the due process clause of the Fourteenth
Amendment. Because Jacob has failed to identify a
clearly established right, we hold the individual defendants are entitled to qualified immunity.
As a general rule, state actors are not liable for
failing to save individuals in life-threatening situations. The due process clause is not “a guarantee of certain minimal levels of safety and security” and it does
not “impose an affirmative obligation on the State to
ensure that [its citizens’] interests do not come to harm
through other means.” DeShaney v. Winnebago Cnty.
Dep’t of Soc. Servs., 489 U.S. 189, 195 (1989). However,
“the state owes a duty to protect individuals if it created the danger to which the individuals are subjected.” Hart v. City of Little Rock, 432 F.3d 801, 805
(8th Cir. 2005) (citation omitted). State officials “create[ ] the danger” faced by an individual when they “act
affirmatively to place [him] in a position of danger that
he . . . would not otherwise have faced.” S. S. v. McMullen, 225 F.3d 960, 962 (8th Cir. 2000) (en banc). Anderson argues that happened here.

App. 9
We need not reach the merits of this argument if
the individual defendants are entitled to qualified immunity. “The qualified immunity standard gives ample
room for mistaken judgments by protecting all but the
plainly incompetent or those who knowingly violate
the law.” Walker v. City of Pine Bluff, 414 F.3d 989, 992
(8th Cir. 2005) (citation omitted). To overcome a qualified immunity defense, a plaintiff must show both that
a statutory or constitutional right has been violated
and that the right was clearly established at the time of
the alleged violation. Smith v. City of Minneapolis, 754
F.3d 541, 546 (8th Cir. 2014). We “have discretion to decide which of the two prongs of qualified-immunity
analysis to tackle first.” Ashcroft v. al-Kidd, 563 U.S.
731, 735 (2011) (citation omitted). Because Anderson
has failed to show the violation of a clearly established
right, we resolve this case on that ground.
“A clearly established right is one that is ‘sufficiently clear that every reasonable official would have
understood that what he is doing violates that right.’ ”
Mullenix v. Luna, 136 S. Ct. 305, 308 (2015) (per curiam) (quoting Reichle v. Howards, 566 U.S. 658, 664
(2012)). “A plaintiff need not always identify a case directly on point, but controlling authority or a robust
consensus of cases of persuasive authority must put
the statutory or constitutional question beyond debate.” Swearingen v. Judd, 930 F.3d 983, ___, 2019 WL
3227454, at *2 (8th Cir. July 18, 2019) (citation omitted). As the Supreme Court has repeatedly stressed,
we are “not to define clearly established law at a high
level of generality.” al-Kidd, 563 U.S. at 742.

App. 10
Here we must ask whether, in December 2013, it
was clearly established that the Fourteenth Amendment is violated when:
•

fire department employees check the vitals on
a hypothermia victim and declare him dead
despite the fact that he is cold in a cold environment;4

•

paramedics and the medical examiner do not
conduct their own assessment of a hypothermia victim after earlier responders declare
the victim dead;

•

police officers do not conduct their own medical assessment of a hypothermia victim and
treat the scene as a crime scene after earlier
responders declare the victim dead.

We have never identified the right that Anderson
asserts was violated. Anderson claims that Freeman v.
Ferguson, 911 F.2d 52 (8th Cir. 1990) and Ross v.
United States, 910 F.2d 1422 (7th Cir. 1990) show that
the right he identifies is clearly established, but neither case defines a specific right that is applicable here.
Shortly after DeShaney recognized “state created
danger” liability, we held that a state actor may be liable when he “has taken affirmative action which increases the individual’s . . . vulnerability . . . beyond
4

Because these claims are similar, and because the claim
against the fire department defendants presents the closest call,
we will analyze the qualified immunity issue primarily through
that lens. The analysis is the same for each group of individual
defendants.

App. 11
the level it would have been absent state action.” Freeman, 911 F.2d at 55. Freeman, as representative of
Geraldine and Valerie Downen’s estates, brought suit
against the police chief of Dumas, Arkansas for failing
to protect the decedents from their husband and father
who murdered them. Id. at 53. Freeman alleged the
chief of police had interfered with his subordinates’
earlier attempts to protect the victims from the murderer. Id. at 54. We explained that “[i]t is not clear, under DeShaney, how large a role the state must play in
the creation of danger and in the creation of vulnerability before it assumes a corresponding constitutional
duty to protect. It is clear, though, that at some point
such actions do create such a duty.” Id. at 55. We noted
that we could find liability under DeShaney where “the
state has taken affirmative action which increases the
individual’s . . . vulnerability . . . beyond the level it
would have been at absent state action.” Id. We thus
remanded the case and permitted Freeman to replead
in light of DeShaney. Id.
Anderson argues that Freeman recognized his
claim that the fire department defendants’ premature
declaration of death made Jacob more vulnerable to
hypothermia because it foreclosed any further assistance from the paramedics or police while he was alive.
But Freeman only left open the possibility that we
could recognize such a claim—it did not clearly establish a rule that such a claim is valid.5 We explained
5

At most, Freeman outlines the state’s duty to protect at the
level of “a broad general proposition,” but does not establish any
rule relevant to “the specific context of [this] case.” Mullenix, 136

App. 12
that “the law is not entirely established as to the extent
to which the government must increase the danger of
private violence before it assumes a corresponding
duty to protect.” Id. at 55. In the decades since then, no
case has settled the state’s duty in these circumstances.
Ross offers more specific guidance regarding the
application of the DeShaney state-created danger exception, but it also differs significantly from this case.
In Ross, a defendant police officer threatened to arrest
two lifeguards, two firefighters, one police officer, and
two civilian scuba divers if they attempted to rescue a
boy who had recently fallen into Lake Michigan. 910
F.2d at 1424–25. Approved rescuers arrived twenty
minutes later, by which time the boy had drowned. Id.
The Seventh Circuit found a constitutional violation
because the county, rather than merely failing to provide rescue services, “had a policy of arbitrarily cutting
off private sources of rescue without providing a meaningful alternative.” Id. at 1431. Importantly for Anderson, the court stripped the officer of qualified immunity
because it was clearly established that a victim had a
constitutional right to not have the state exert its
power to prevent his rescue when not undertaking its
own rescue operation. Id. at 1432. The court founded
this right in the “fundamental tenet of our constitutional jurisprudence” that “the state cannot arbitrarily

S. Ct. at 308. As such, it does not clearly establish a right that
defeats the individual defendants’ qualified immunity defenses.

App. 13
assert its power so as to cut short a person’s life.” Id. at
1433.
Unlike in Ross, no one intentionally or arbitrarily
cut off emergency services to Jacob. Once the fire department defendants declared him dead the emergency response did not end but it changed. The
defendants in this case may have performed their duties poorly, but if so, they made an error in judgment of
the sort that qualified immunity protects. See Walker,
414 F.3d at 992. They did not intentionally deny emergency aid to someone they believed to be alive. The situation presented by this case is unique and the
constitutional rule recognized in Ross does not apply
to these facts.
In more factually similar cases, courts have found
a constitutional violation only where the government
has taken a more active role in placing the victim in
harm’s way. See, e.g., Riordan v. City of Joliet, 3
F. Supp. 2d 889, 898–99 (N.D. Ill. 1998) (denying qualified immunity to police officers who dropped off an extremely intoxicated man on the side of the road at
night in freezing weather). But even then, our cases
demonstrate that a plaintiff faces a high bar. See Gladden v. Richbourg, 759 F.3d 960, 966–67 (8th Cir. 2014)
(granting qualified immunity to officers who left plaintiff out in the cold because the plaintiff was not so extremely intoxicated that it was obvious to officers that
he could not walk or make decisions for himself ). The
defendants in this case did not place Jacob out in the
cold. Despite the tragic consequences that Anderson
argues followed from their alleged failures, the

App. 14
defendants did not violate a clearly established due
process right.
Lacking an analogous case, Anderson argues that
under Hope v. Pelzer, 536 U.S. 730 (2002), regulations
can place state actors on notice that their actions violate an individual’s constitutional rights. But Hope
does not stand for that proposition. In Hope, prison
guards handcuffed an inmate to a hitching post and
left him there for seven hours as a punishment. Id. at
734–35. The Supreme Court denied qualified immunity in part because the guards had failed to follow a
regulation that required officers to log an inmate’s responses to offers of water and bathroom breaks every
fifteen minutes when the inmate was shackled to fence
posts. Id. at 744. The regulation had frequently been
ignored in the past, which the Court considered evidence that the guards “were fully aware of the wrongful character of their conduct.” Id. at 744. But the
regulation was ultimately less important to Hope’s
conclusion that the prison guards had violated the
Constitution than: (1) a binding circuit case that recognized “handcuffing inmates to the fence and to cells
for long periods of time” was unconstitutional, and (2)
a notice from the Department of Justice warning the
state prison system that its use of the hitching post fell
below the requirements of both the Constitution and
its own regulations. Id. at 742–45 (quoting Gates v. Collier, 501 F.2d 1291, 1306 (5th Cir. 1974)). These were
the facts—not the existence of the prison regulation—
that the Court held should have “put a reasonable officer on notice that the use of the hitching post under

App. 15
the circumstances alleged by Hope was unlawful.” Id.
at 745–46.
Anderson’s argument that the regulations directing first responders to begin CPR and rewarming even
where a hypothermia victim appears dead should be
treated as evidence of a clearly established constitutional duty therefore fails because Hope itself was
based on much more than the existence of a regulation.
But even if Anderson were correct about what Hope
means, we do not think that Hope’s rationale necessarily applies outside of the prison context. While it
seems likely that the contours of a regulation regarding punishing prisoners will be informed at least in
part by the Eighth Amendment, there is no reason to
think that medical guidelines for first responders enshrine duties arising out of the Fourteenth Amendment. That the medical guidelines were not followed
here could possibly be the basis for a negligence suit,
but it is not the basis for a constitutional one.
We also reject Anderson’s argument that qualified
immunity is inapplicable because the first responders
were not executing discretionary functions. We have
previously suggested that the exception to qualified
immunity for non-discretionary or ministerial acts is a
“dead letter.” Sellers v. Baer, 28 F.3d 895, 902 (8th Cir.
1994), cert. denied, 513 U.S. 1084 (1995); see also, DeArmon v. Burgess, 388 F.3d 609, 613 (8th Cir. 2004). Regardless of the state of the exception, it does not apply
here. We explained in a similar case:

App. 16
The exception to qualified immunity for functions that are “ministerial” rather than “discretionary” is quite narrow. For qualified
immunity purposes, a duty is “ministerial”
only where the statute or regulation leaves no
room for discretion—that is, it specif[ies] the
precise action that the official must take in
each instance. In addition, the ministerialduty exception applies only where it is the violation of the ministerial duty that gives rise
to the cause of action for damages.
Sellers, 28 F.3d at 902 (citations omitted). As in Sellers,
Anderson cannot claim that he is entitled to damages
simply because the regulations at issue were violated.
“[T]he issue before us is whether the [defendants’] conduct violated any clearly established constitutional
rights, not whether the [defendants] may have violated
departmental regulations.” Id. Anderson makes his
claims based on the Fourteenth Amendment, not the
Minneapolis Fire Department’s regulations, and therefore the defendants are eligible for qualified immunity.
Finally, Anderson makes several other arguments
directed at the district court’s conclusion that no constitutional violation occurred. Because we do not reach
that question, we need not address them.
B.
The district court dismissed Anderson’s claims
against the municipalities because it found no underlying constitutional violation. Although we do not
decide that issue, Anderson’s claims against the

App. 17
municipalities still fail because they require a showing
of deliberate indifference on the part of the municipalities. See City of Canton v. Harris, 489 U.S. 378, 388
(1989). Municipalities “cannot exhibit fault rising to
the level of deliberate indifference to a constitutional
right when that right has not yet been clearly established.” Szabla v. City of Brooklyn Park, 486 F.3d 385,
393 (8th Cir. 2007) (en banc). As we have explained,
although this case is undeniably tragic, Anderson has
not alleged the violation of a clearly established right
and he therefore cannot show deliberate indifference
on the part of any municipality.
IV.
For the foregoing reasons, we affirm the judgment
of the district court.

App. 18
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
William Anderson, As
Trustee for the Next-ofKin of Jacob William
Anderson (deceased)

File No.
16-cv-04114 (SRN/FLN)

Plaintiff,
v.
City of Minneapolis; County
of Hennepin; Hennepin
Healthcare System, Inc.;
Dr. Brian Mahoney, M.D., as
then-Medical Director of
HCMC Ambulance Service;
Shana D. York, Anthony J.
Buda, Raul A. Ramos, and
John Doe individuals to be
determined, Individual Fire
Department Personnel in
Their Individual Capacities;
Daniel F. Shively and John
Doe individuals to be
determined, Individual
HCMC Ambulance Services
Personnel in Their
Individual Capacities;
Mitchel Morey, M.D.,
Individual Medical
Examiner’s Personnel, in
His Individual Capacity;
Daniel J. Tyra, Shannon L.
Miller, Dustin L. Anderson,
Scott T. Sutherland,

MEMORANDUM
OPINION
AND ORDER
(Filed Mar. 30, 2018)

App. 19
D. Blaurat, Emily Dunphy,
Christopher Karakostas,
Matthew George, Joseph
McGinness, Calvin Pham,
Arlene M. Johnson,
Matthew T. Ryan, and
John Doe individuals to
be determined, Individual
Police Officers in Their
Individual Capacities,
Defendants.
Robert R. Hopper, Robert R. Hopper & Associates, 333
South 7th Street, Suite 2450, Minneapolis, MN 55402,
for Plaintiff.
Ivan M. Ludmer, Minneapolis City Attorney’s Office,
350 South 5th Street, Room 210, Minneapolis, MN
55415, for Defendants City of Minneapolis; Individual
Fire Department Personnel in Their Individual Capacities; Individual Police Officers in Their Individual
Capacities: Daniel J. Tyra, Shannon L. Miller, Dustin
L. Anderson, Scott T. Sutherland, D. Blaurat, Emily
Dunphe, Christopher Karakostas, and Arelene M.
Johnson.
Tracey N. Fussy, Minneapolis City Attorney’s Office,
350 South 5th Street, Room 210, Minneapolis, MN
55415, for Defendant City of Minneapolis.
Michael B. Miller, Hennepin County Attorney’s Office,
300 South 6th Street, Suite A-2000, Minneapolis, MN
55487, for Defendants County of Hennepin; Hennepin

App. 20
Healthcare System, Inc.; Daniel F. Shively, Individual
HCMC Ambulance Services Personnel in His Individual Capacity; Mitchel Morey, M.D., Individual Medical
Examiner’s Personnel, in His Individual Capacity; and
Dr. Brian Mahoney, M.D., as then-Medical Director of
HCMC Ambulance Service.
Ann E. Walther and Erik Bal, Rice, Michels & Walther,
LLP, 10 South 2nd Street NE, Suite 206, Minneapolis,
MN 55413, For Individual Police Officers in Their Individual Capacities Matthew George, Joseph McGinness, Calvin Pham, and Matthew T. Ryan.
SUSAN RICHARD NELSON, United States District
Judge.
This is a very tragic case. Jacob Anderson, 19 years
old at the time and a student at the University of Minnesota, was found in the frigid early morning hours of
December 15, 2013, lying face down, slumped over a
metal rail in a remote location in Minneapolis. The first
responders declared him dead on the scene. The autopsy report states that the cause of death was hypothermia. The Plaintiff, Mr. Anderson’s father and trustee
for Jacob’s next-of-kin, brings this lawsuit against a
number of authorities and first responders, arguing that
their actions in failing to take immediate measures to
provide medical treatment to his son for hypothermia,
including warming him, in hope that he was still alive,
is actionable under 42 U.S.C. § 1983.
This matter is before the Court on: (1) a Motion
to Dismiss Plaintiff ’s Second Amended Complaint

App. 21
filed by Defendants County of Hennepin (“the County”),
Hennepin Healthcare System, Inc. (“HHS”), Daniel
Shively, Dr. Mitchel Morey, and Dr. Brian Mahoney (collectively, “County Defendants”) (Cty. Defs.’ Mot. [Doc. No.
96])1; (2) a Motion to Dismiss Plaintiff ’s Second
Amended Complaint filed by Defendants City of Minneapolis (“the City”), Shana D. York, Anthony J. Buda,
Raul A. Ramos, Daniel J. Tyra, Shannon L. Miller,
Dustin L. Anderson, Scott T. Sutherland, D. Blaurat,
Emily Dunphy, Christopher Karakostas, and Arlene M.
Johnson (collectively, “City Defendants”) (City Defs.’
Mot. [Doc. No. 103]); and (3) identical Motions to Dismiss Plaintiff ’s Second Amended Complaint filed by
Minneapolis Park and Recreation Board (“MPRB”) Defendants Joseph McGinness and Calvin Pham [Doc.
No. 108], and Mathew Ryan and Mathew George [Doc.
No. 123]. Although this Court has great sympathy for
Jacob’s family, for the reasons set forth below and as
detailed herein, these motions must be granted.
I.

BACKGROUND
A. Factual Background

This Court assumes—as it must when evaluating
a facial attack to jurisdiction under Federal Rule of
Civil Procedure 12(b)(1) and when ruling on a motion
to dismiss under Rule 12(b)(6)—that all facts pleaded
1

The County Defendants submitted a letter after filing their
Motion, clarifying that the Motion was brought on behalf of Mahoney as well, even though his name was inadvertently omitted
from the briefing. (See Letter to District Judge [Doc. No. 102].)

App. 22
in the complaint are true. See Aten v. Scottsdale Ins.
Co., 511 F.3d 818, 820 (8th Cir. 2008); Branson Label,
Inc. v. City of Branson, 793 F.3d 910, 914 (8th Cir.
2015); see also infra, Sections II.A.1 and II.B.1.
In the early morning hours of December 15, 2013,
a passerby found then 19-year-old Jacob Anderson
(“Anderson”) lying face down, slumped over a metal
rail in a remote location near a bridge in Minneapolis,
Minnesota. (Second Am. Compl. [Doc. No. 86] at 11,
¶ 35.)2 It was a very cold morning, with some reports
indicating a wind chill temperature of -15° Fahrenheit.
(Id. at 11, ¶ 34.) The circumstances of how Anderson
arrived at this location are unknown. (Id. at 11, ¶ 37.)
The night before, on December 14, he attended an “ugly
sweater party” with his friends, fellow University of
Minnesota students. (Id. at 10, ¶ 32.) Although Anderson was seen leaving the party at around 11:15 p.m.,
he did not return to his University of Minnesota dormitory that night. (Id. at 10–11, ¶¶ 32–33.)
After spotting Anderson, the passerby called 911.
(Id. at 11, ¶ 38.) The 911 dispatcher sent to the scene
the Minneapolis Fire Department (“MFD”), Hennepin
County Medical Center (“HCMC”) Ambulance Services/
Emergency Medical Services, and the Minneapolis
Police Department (“MPD”). (Id.) What followed was a
succession of responses by emergency personnel from
the County, the City, and the MPRB that form the basis
of this suit.
2

The Second Amended Complaint utilizes paragraph numbers
1–38 twice. To avoid confusion, citations to paragraphs within
that range contain a page number as well.

App. 23
MFD was the first to arrive on the scene at 8:54
a.m. (Id. at 16, ¶ 18.) Responders from the MFD included Defendants York, Buda, and Ramos (collectively, “Individual MFD Defendants”). (Id.) At least
some of the Individual MFD Defendants were certified
Emergency Medical Technicians who provide prehospital emergency medical care and transportation for patients who access emergency medical services. (Id. at
17, ¶ 19 & n. 6.) According to a witness on the scene,
the Individual MFD Defendants assessed Anderson by
conducting “a mere 30 second pulse check at his wrist,
which was frostbitten and cold to the touch.” (Id. at 17,
¶ 20.) After this assessment, MFD pronounced Anderson “dead on arrival.” (Id.) The time was 8:57:24 a.m.—
only three and a half minutes after MFD arrived on
the scene. (Id. at 17, ¶ 21.)
The incident report that MFD prepared provides
additional details. The report indicates that no “BLS,”
or basic life support, was provided. (Id. at 17, ¶ 24.) The
report also states that Anderson “had no pulse and no
breathing and was frozen indicating obvious death.”
(Id. at 17, ¶ 23.) It also indicates that the ambulance
was “cancelled” at 8:57:24 a.m., and that police were
called “per protocol.” (Id. at 17, ¶¶ 22–23.)
At 8:56 a.m., about a minute and a half before
MFD declared Anderson as “dead on arrival” and cancelled ambulance services, an HCMC ambulance unit

App. 24
arrived on the scene.3 (Id. ¶¶ 47, 53.) The HCMC responders included Defendant Shively and Anthony A.
Van Beusekom (collectively “Individual HCMC Defendants”).4 (Id. ¶ 48.) When they arrived, Shively and
Van Beusekom walked from the ambulance to Anderson’s location and back to the ambulance again, but did
not medically examine or assess Anderson or provide
him with medical treatment. (Id. ¶ 52.) These Defendants “did not conduct their own assessment of [Anderson’s] condition, or check for vital signs or core body
temperature,” or check for “pulse, breath, or airway
ice formation.” (Id. ¶ 54.) The Individual HCMC Defendants remained on the scene for approximately
two minutes. (Id. ¶ 51.) After the incident, Shively prepared a report, which states that the HCMC ambulance had been “cancelled by other units on the scene.”
(Id. ¶ 55.) The report further states that there was a
“frozen body near [the] river.” (Id.) The Individual
HCMC Defendants are overseen by the HCMC ambulance service Medical Director, who at that time was
Defendant Mahoney. (Id. ¶ 56.)
The last of the emergency responders to arrive
were from the MPD and MPRB. (Id. ¶ 93.) These responders, who arrived at 8:57 a.m., included Defendants
3

It is unclear why, after HCMC had already arrived on the
scene, MFD cancelled ambulance services. (See Second Am. Compl.
17, ¶ 23.)
4
Despite being mentioned in the body of the Second Amended
Complaint, Van Beusekom is neither listed on the cover page nor
described in the “Parties” section. (See id. at 3–9, ¶¶ 1–27.) He
also does not appear as a party in ECF.

App. 25
Tyra, Miller, Anderson, Sutherland, Blaurat, Dunphy,
Karakostas, and Johnson (collectively “Individual MPD
Defendants”), as well as MPRB Defendants George,
McGinness, Pham, and Ryan.5 (Id. ¶ 95.) Shortly after
these Defendants arrived, MFD “relinquished control
of the scene” and left. (Id. ¶ 97.) MPD then called for a
“Car 701,” which must be requested to the scene when
the incident involves a suspicious death or homicide.
(Id. ¶ 98.) About an hour and a half later, at 10:30 a.m.,
MPD also notified the Hennepin County Medical Examiner’s Office (“Medical Examiner’s Office”) of Anderson’s death. (Id. ¶ 102.)
Upon being notified, the Medical Examiner’s Office sent two death investigators to the scene. (Id.
¶ 109.) Once on the scene, these investigators called
the Assistant Medical Examiner, Defendant Morey, to
discuss the case. (Id. ¶ 112.) Morey is a medical doctor
and a board-certified forensic pathologist. (Id.) On this
call, Morey determined that a medical doctor’s visit to
the scene was not necessary, and the Medical Examiner’s Office took no further action while the investigators were on the scene. (Id. ¶ 113.)
Eventually, the Medical Examiner’s Office performed an autopsy on Anderson’s body. (Id. ¶ 121.)
The autopsy report, which was signed by Morey, indicates that Anderson’s immediate cause of death was
5

Although the Second Amended Complaint lists George,
McGinness, Pham, and Ryan as MPD officers, (see id. ¶ 95), these
Defendants aver that they are actually employed by the MPRB,
(see McGinness & Pham’s Mem. [Doc. No. 112] at 2 n.2; Ryan &
George’s Mem. [Doc. No. 126] at 2 n.2).

App. 26
hypothermia. (Id.) The date and time of death are
listed as December 15, 2013, 8:48 a.m. (Id.)
On the basis of the aforementioned facts, the present action was initiated.
B. Procedural Background
1. Plaintiff ’s Complaints
On December 8, 2016, a few days short of the
three-year anniversary of Anderson’s death, Anderson’s parents, William Anderson (“William”) and Kristi
Anderson (“Kristi”),6 filed the First Complaint against
the various entities and individuals who responded to
Anderson’s death. (See First Compl. [Doc. No. 1] ¶¶ 4–
30.) In addition to listing William and Kristi as plaintiffs in their individual capacities, the First Complaint
also listed William in his capacity as personal representative of Anderson’s estate. (Id. ¶¶ 1–3.) Though
not relevant here, that First Complaint alleged one
count under federal law and twelve counts under state
law. (Id. ¶¶ 92–251.)
On March 9, 2017, by then more than three years
and two months after Anderson’s death, William was
appointed trustee for the next-of-kin of Anderson.
(Second Am. Compl. at 3, ¶ 1.) On March 24, 2017, the
First Amended Complaint was filed, now listing as sole
6

This Court always prefers to refer to litigants by their last
names. However, because Jacob Anderson is referred to as “Anderson” throughout this Order, his parents William and Kristi
Anderson will be referred to by their first names to avoid confusion.

App. 27
plaintiff William in his capacity as trustee. (See First
Am. Compl. [Doc. No. 43] ¶ 1.) On April 19, 2017, William filed a Second Amended Complaint, again in his
capacity as trustee. (See Second Am. Compl.) That is
now the operative pleading in this case, and it is in his
capacity as trustee for Anderson’s next-of-kin that William is referred to as “Plaintiff ” throughout this Order.
The Second Amended Complaint alleges six counts
under federal and state law. As the underlying basis
for all claims is Defendants’ alleged failure to recognize
Anderson as a severe hypothermia victim and to render the medical help that Plaintiff alleges might have
saved Anderson’s life. The Second Amended Complaint
generally alleges that Defendants “summarily pronounced [Anderson] dead, in complete and total contravention of their medical knowledge and their duties
to provide appropriate medical assessment and response.” (Id. ¶ 132.) Plaintiff alleges that this constitutes a failure to implement Defendants’ “legally
obligated standard operating procedures, and in particular, their respective department protocols for treating hypothermia victims.” (Id.)
Counts I through IV allege violations under 42
U.S.C. § 1983 (“§ 1983”). (See id. ¶¶ 135–234.) Count I
alleges a violation of Due Process under the Fourteenth Amendment. (Id. ¶ 135–64.) This Count alleges
that the Individual MFD, HCMC, MPD and MPRB
Defendants, as well as Morey and Mahoney, were
deliberately indifferent to Anderson’s life-threatening
medical needs, which caused the deprivation of Anderson’s constitutional rights to life, liberty, and personal

App. 28
security under the Fourteenth Amendment. (See id.)
Count II, asserted against these same Defendants, alleges “special relationship” violations under the Fourteenth Amendment. (See id. ¶¶ 165–77.) Plaintiff claims
that “a special custodial relationship arose and attached when Jake Anderson was in [these Defendants’]
custody and unable to seek other aid,” and that such
“special relationship created an affirmative duty to
protect [Anderson’s] life and provide him with care.”
(Id. ¶ 167.)
Count III is asserted against the City, the County,
and Mahoney, and alleges deliberately indifferent
training and supervision. (See id. ¶¶ 178–225.) Plaintiff claims that the City “has a policy, custom, practice
and pattern of inadequate training and supervision” of
the emergency response personnel employed by MFD
and MPD. (Id. ¶ 183.) Plaintiff claims that the County
also has a policy, custom, pattern, and practice of inadequate training and supervision of its emergency
response personnel. (Id. ¶ 197.) Count III also makes
claims against Mahoney, alleging that HCMC’s “improper handling” of Anderson was the result of his
improper training and negligent supervision of the Individual HCMC Defendants as then-Medical Director.
(Id. ¶ 214.)
Count IV alleges municipal liability for negligent
performance of duty by a state actor and is asserted
against the Individual MFD, HCMC, MPD and MPRB
Defendants as well as Morey. (See id. ¶¶ 226–34.)
This Count alleges that these Defendants “failed to
properly conduct their duties when they erroneously

App. 29
and haphazardly pronounced [Anderson] dead after he
was discovered cold in a cold environment with known
symptoms of survivable hypothermia, without any reasonable medical support for their untimely declaration
of [Anderson’s] death.” (Id. ¶ 232.)
Counts V and VI allege claims under state law
against all Defendants. Count V asserts gross negligence, alleging that Defendants should have known
that Anderson was the victim of hypothermia based on
their extensive medical training, and that their failure
to provide Anderson with medical treatment contravened established medical standards for treating survivable hypothermia. (Id. ¶¶ 238–40.) Finally, Count
VI alleges negligent undertaking, claiming that a special duty arose when Defendants undertook to render
emergency medical services to Anderson, and that Defendants breached this special duty by failing to render
any such emergency medical assistance. (Id. ¶¶ 255–
57.)
2. Defendants’ Motions to Dismiss
On May 16, 2017, the County Defendants filed a
Motion to Dismiss under Federal Rules of Civil Procedure 12(b)(1) and 12(b)(6) for lack of subject matter jurisdiction and for failure to state a claim. The County
Defendants argue that this Court lacks subject matter
jurisdiction over the entire case because Plaintiff failed
to comply with the requirements of Minnesota’s wrongful death statute, Minn. Stat. § 573.02, which they argue governs all of his claims. (See Cty. Defs.’ Mem. [Doc.

App. 30
No. 98] at 9–13.) According to the County Defendants,
that statute required Plaintiff to be appointed trustee
within three years of Anderson’s death. (Id.) Thus, because Plaintiff failed to comply with that requirement,
they argue that he lacks standing to sue. (Id.) In the
alternative, the County Defendants also move to dismiss under Rule 12(b)(6), arguing that Plaintiff has
failed to properly plead his claims, and that, in any
event, they are entitled to immunity. (See id. at 15–31.)
On May 17, 2017, the City Defendants also filed a
Motion to Dismiss under Rules 12(b)(1) and 12(b)(6).
Although the City Defendants frame their arguments
slightly differently, like the County Defendants, they
argue that this Court lacks subject matter jurisdiction
because Plaintiff “failed to bring the lawsuit within
three years of Anderson’s death, a condition precedent
under Minnesota’s wrongful death statute, Minn. Stat.
§ 573.02.” (See City Defs.’ Mem. [Doc. No. 105] at 1–2,
7–11.) In the alternative, the City Defendants also argue that Plaintiff ’s claims must be dismissed under
Rule 12(b)(6) because the Second Amended Complaint
“fail[s] to assert sufficient facts to establish negligence
or a constitutional deprivation,” (id. at 2, 12–23), and
because Plaintiff ’s claims are barred by various doctrines of immunity, (see id. at 12–15).
On May 17, 2017, Defendants McGinness and
Pham also moved to dismiss the Second Amended
Complaint under Rules 12(b)(1) and 12(b)(6). In a footnote, McGinness and Pham indicated that Defendants
George and Ryan would join their Motion if Plaintiff
timely served George and Ryan. (McGinness & Pham

App. 31
Mem. at 2 n.2.) On June 21, 2017, Defendants George
and Ryan filed a Motion to Dismiss, and a Memorandum in Support, that is identical to the one filed by
McGinness and Pham. (Compare McGinness & Pham
Mem., with George & Ryan Mem.) Accordingly, the
Court will address these four Defendants’ arguments
collectively—referring to Defendants as the MPRB Defendants—but will only cite to McGinness and Ryan’s
briefing.
Like the County and City Defendants, the MPRB
Defendants argue that this Court should dismiss the
Second Amended Complaint because “Plaintiff failed
to secure appointment as a wrongful death trustee
within the three-year statute of limitations period,”
and as such lacks standing to assert any of the claims
in this action. (McGinness & Pham Mem. at 7.) And
again like the City and County Defendants, the MPRB
Defendants argue that the Second Amended Complaint fails to state a claim upon which relief may be
granted, and that even if it did, immunity bars the
claims. (See id. at 7–15.)
II.

DISCUSSION

Defendants’ Rule 12(b)(1) Motions to Dismiss implicate subject matter jurisdiction, so this Court will
consider them first. See Frey v. City of Herculaneum, 44
F.3d 667, 670 (8th Cir. 1995) (“We may not consider the
parties’ arguments as to whether the complaint states
a cause of action until we have determined whether
the plaintiffs have standing to recover under section

App. 32
1983.”); ABF Freight Sys., Inc. v. Int’l Bhd. of Teamsters,
645 F.3d 954, 958 (8th Cir. 2011) (“Federal jurisdiction
is limited by Article III of the Constitution to cases or
controversies; if a plaintiff lacks standing to sue, the
district court has no subject-matter jurisdiction.”).
A. Rule 12(b)(1) Motions
1. Standard of Review
Federal courts deciding a Rule 12(b)(1) motion
must distinguish between a “facial attack” and a “factual attack” to jurisdiction. Branson, 793 F.3d at 914.
Here, the parties bring a facial attack to jurisdiction,
so “the court restricts itself to the face of the pleadings
and the non-moving party receives the same protections as it would defending against a motion brought
under Rule 12(b)(6).” Id. (quoting Osborn, 918 F.2d at
729 n. 6). On a motion to dismiss under Rule 12(b)(6),
this Court “accept[s] as true the non-moving party’s
factual allegations and grant[s] the non-moving party
all reasonable inferences from the pleadings.” Noble
Sys. Corp. v. Alorica Cent., LLC, 543 F.3d 978, 981 (8th
Cir. 2008).
Because Plaintiff ’s federal and state law claims
implicate different issues, the Court will address them
separately.
2. Jurisdiction over § 1983 Claims
Defendants argue that this Court lacks subject matter jurisdiction over Plaintiff ’s § 1983 claims because

App. 33
he failed to comply with the requirements set forth
in Minnesota’s survival and wrongful death statutes,
Minn. Stat. §§ 573.01–.02. (See Cty. Defs.’ Mem. at 9–
13; City Defs.’ Mem. at 7–11; McGinness & Pham Mem.
at 5–7.)7 Specifically, Defendants contend that those
statutes “govern” even his § 1983 claims and required
him to bring this action in his capacity as trustee
within three years of Anderson’s death. (See City Defs.’
Mem. at 7–11.) Because he failed to do so, Defendants
argue, he lacks standing to sue. (Id.) In essence, Defendants’ position calls for this Court to consider the
extent to which it must look to Minnesota’s survival
law to determine whether it has jurisdiction over
Plaintiff ’s federal claims.
The Supreme Court has repeatedly recognized
that there are certain gaps in federal civil rights law.
To fill those gaps, 42 U.S.C. § 1988 (“§ 1988”) instructs
courts “to turn to ‘the common law, as modified and
changed by the constitution and statutes of the [forum]
State,’ as long as these are “not inconsistent with the
Constitution and laws of the United States.” ” Robertson v. Wegmann, 436 U.S. 584, 588 (1978) (alteration in
original) (quoting 42 U.S.C. § 1988). One of the gaps in
federal law relates to the survival of civil rights actions
under § 1983. Id. at 589. In Robertson v. Wegmann, the
Supreme Court held that under § 1988’s “borrowing”
mandate, “state statutory law, modifying the common
7

As stated above, although Defendants frame their arguments slightly differently, in effect, their position is the same. Accordingly, the Court addresses their Motions collectively, but will
cite primarily to the City Defendants’ Memorandum.

App. 34
law, provides the principal reference point in determining survival of civil rights actions” so long as that state
law is not inconsistent with the Constitution or federal
law. Id. at 589–90 (footnote omitted). In that case, the
Supreme Court concluded that a Louisiana federal district court should have looked to Louisiana state survival law to determine whether an existing § 1983
action survived the plaintiff ’s death, and, if so, who
would be the proper party to continue prosecuting the
action. Id. at 590–92.
The Eighth Circuit has consistently construed
Robertson as requiring federal courts to apply state
law to determine “who” may bring a § 1983 action upon
the death of the injured party. For example, in Andrews
v. Neer, the Eighth Circuit stated:
Under § 1983, state actors who infringe the
constitutional rights of an individual are liable to the party injured. The appropriate
plaintiff is obvious when a party survives his
injuries, but the language of § 1983 makes no
mention of permissible plaintiffs when the
injured party dies. . . . [I]n this situation we
look to state law to determine who is a proper
plaintiff, as long as state law is not inconsistent with the Constitution or federal law.
253 F.3d 1052, 1056 (8th Cir. 2001) (internal citations
and quotation marks omitted) (citing Robertson, 436
U.S. at 588–90). In that case, the Eighth Circuit considered whether a daughter could bring a § 1983 action arising out of the death of her father. Id. at 1056–
58. The relevant Missouri wrongful death statute

App. 35
provided that “the spouse or children or the surviving
lineal descendants” could sue for damages when injuries sustained by the decedent caused the decedent’s
death. Id. at 1058 (quoting Mo. Rev. Stat. § 537.080).
The Eighth Circuit held that “[it] look[s] to Missouri’s
wrongful death statute solely for the purpose of establishing whether Andrews[,] [the decedent’s daughter,]
ha[d] standing to bring th[e] § 1983 action.” Id. at 1058
n.4. The Eighth Circuit held that the Missouri wrongful death statute gave “Andrews standing as an individual to assert an action for personal injuries to her
father resulting in his death,” and as such she “ha[d]
standing to bring th[e] § 1983 action.” Id. at 1058. Similarly, in Williams v. Bradshaw, the Eighth Circuit
considered whether the plaintiff had standing to bring
§ 1983 claims arising out of her mother’s death. 459
F.3d 846, 847–49 (8th Cir. 2006). The Eighth Circuit
noted that “[u]nder Arkansas law a wrongful-death action may be brought only by a personal representative
or, if there is no personal representative, by the decedent’s heirs at law.” Id. at 848 (citing Ark. Code. Ann.
§ 16-62-102(b)). Accordingly, the Eighth Circuit concluded that the plaintiff lacked standing to file her
original complaint because she was not a personal representative and had not included as plaintiffs all of the
decedent’s heirs. Id. at 849.
These cases clearly counsel that this Court must
look to Minnesota’s survival and wrongful death statutes solely for the purpose of ascertaining “who” may
bring a § 1983 action under the circumstances of this
case. Minn. Stat. § 573.01 provides that “[a] cause of

App. 36
action arising out of an injury to the person dies with
the person of the party in whose favor it exists, except
as provided in section 573.02.” Minn. Stat. § 573.02
(“§ 573.02”), in turn, provides that a duly-appointed
trustee may bring two types of actions. Subdivision 1,
titled “Death action,” provides in relevant part that
When death is caused by the wrongful act or
omission of any person . . . , the trustee appointed as provided in subdivision 3 may
maintain an action therefor if the decedent
might have maintained an action, had the decedent lived, for an injury caused by the
wrongful act or omission.
Minn. Stat. § 573.02, subdiv. 1 (emphasis added). Similarly, subdivision 2, titled “Injury action,” provides
that
When injury is caused to a person by the
wrongful act or omission of any person . . . and
the person thereafter dies from a cause unrelated to those injuries, the trustee appointed in
subdivision 3 may maintain an action for special damages arising out of such injury if the
decedent might have maintained an action
therefor had the decedent lived.
Minn. Stat. § 573.02, subdiv. 2 (emphasis added). Because this statutory scheme gives a trustee standing to
bring claims sounding in wrongful death, personal injury on behalf of the decedent, or both, under Robertson
and its progeny, that trustee also has standing to bring
§ 1983 claims. Here, Plaintiff was appointed trustee for
Anderson’s next-of-kin by a judge in Hennepin County,

App. 37
and thus this Court holds that he has standing to bring
the § 1983 claims.
Defendants would have this Court reach a different conclusion, but their arguments are unavailing.
They turn this Court’s attention to the three-year statute of limitations for wrongful death actions under
§ 573.02, subdivision 1. (See City Defs.’ Mem. at 7–11.)
In relevant part, that subdivision provides that “[a]n
action to recover damages for a death caused by the
alleged professional negligence of a physician . . . [or
his or her employee] shall be commenced within three
years of the date of death,” and that “[a]ny other action
under this section,” except one arising from murder,
“may be commenced within three years after the date
of death provided that the action must be commenced
within six years after the act or omission.” Minn. Stat.
§ 573.02, subdiv. 1. Defendants assert that as interpreted by Minnesota state courts, the statute’s threeyear suit-commencement period is not an ordinary
statute of limitations, but rather a “separate jurisdictional condition precedent on wrongful death actions”
that functions to deprive Plaintiff of standing in this
case. (See City Defs.’ Mem. at 8.)
In support of their position, Defendants primarily
rely on the Minnesota Supreme Court case of Ortiz v.
Gavenda, 590 N.W.2d 119 (Minn. 1999) (en banc). In Ortiz,
the Minnesota Supreme Court considered whether the
amendment and relation back principles generally applicable to pleadings applied to wrongful death claims
brought under § 573.02. 590 N.W.2d at 120. In that
case, the plaintiff brought a wrongful death action

App. 38
against the parties involved in a vehicle collision that
resulted in her husband’s death. Id. The plaintiff filed
her original complaint less than two years after the
death of her husband, but did not obtain trustee status
until more than three years had elapsed since his
death. Id. at 120–21. After her appointment as trustee,
the plaintiff sought to amend her original complaint to
reflect the appointment, and because the statute of
limitations had run, she argued that the amendment
should relate back to the date of the original complaint.
Id. at 121. The Minnesota Supreme Court disagreed.
The court noted that “the limitation provisions in a
statutorily created cause of action are jurisdictional,
requiring dismissal for failure to comply,” and not subject to any exceptions. Id. at 122. The court held that
because the plaintiff had not filed her original complaint in her capacity as trustee, that initial complaint
was a “legal nullity,” and thus nothing existed to which
the attempted amendment could “relate back.” Id. at
123 (quoting Regie de l’assurance Auto. du Quebec v.
Jensen, 399 N.W.2d 85, 92 (Minn. 1987)). The plaintiff ’s
claims were thus time-barred. The Minnesota Supreme
Court concluded by noting that for over 100 years, it
has consistently interpreted “Minn. Stat. § 573.02’s
time limit as a strict condition precedent to maintaining a wrongful death action.” Id.
While Ortiz and related cases are relevant to
Plaintiff ’s ability to bring his state law claims, see
infra, they are not dispositive of this Court’s analysis
of § 1983 standing. The opening paragraph of Ortiz expressly states that its review is limited to whether

App. 39
principles associated with statutes of limitations—
amendment and relation back—apply to the wrongful death statute. 590 N.W.2d at 120. This issue is
wholly distinct from standing. See Popp Telecom, Inc. v.
Am. Sharecom, Inc., 361 F.3d 482, 490 (8th Cir. 2004)
(“Generally, courts apply the relation-back doctrine
with reference to statutes of limitations.”).8 Ortiz is
thus inapposite, because as explained above, Andrews,
Williams, and related cases indicate that courts borrow from state survival law only to determine “who”
may assert § 1983 claims arising from another’s death.
See, e.g., Archer v. Preisser, 723 F.2d 639, 640 (8th Cir.
1983) (per curiam) (concluding that Iowa law granted
standing to bring a survival action only to the legal
representative or successor in interest of the deceased,
and thus a guardian for the decedent’s children did not
have standing to bring a § 1983 action).
In fact, in a highly relevant case, the Eighth Circuit recently considered whether a father appointed
as a special administrator of his deceased son’s estate
could bring a § 1983 action in Minnesota. Estate of
Guled v. City of Minneapolis, 869 F.3d 680 (8th Cir.
8

That Minnesota courts label compliance with the threeyear statute of limitations a “strict condition precedent” to bringing suit is of no consequence. “The fundamental aspect of standing is that it focuses on the party seeking to get his complaint
before a federal court and not on the issues he wishes to have adjudicated. . . . In other words, when standing is placed in issue in
a case, the question is whether the person whose standing is challenged is a proper party to request an adjudication of a particular
issue. . . .” Flast v. Cohen, 392 U.S. 83, 99–100 (1968) (emphasis
added).

App. 40
2017). The Eighth Circuit held that he could not, as he
was not a wrongful death trustee under § 573.02. Id.
at 683–85. The Court held that “[t]he wrongful death
statute—not the probate statute—governs § 1983 standing.” Id. at 684 (citing Robertson, 436 U.S. at 589). The
Court went on to hold that “only a person who has
standing to bring a claim under § 573.02 has standing
to bring a § 1983 action,” and because the plaintiff was
not a wrongful death trustee under § 573.02, he did not
have standing to pursue a § 1983 claim. Id. Although
the Eighth Circuit did not have occasion to consider
the relevance of § 573.02’s three-year statute of limitations to the case, nothing in its analysis indicates that
this issue would have been relevant to the issue of
§ 1983 standing. In fact, the court noted that “[b]ecause
the three-year statute of limitations on [plaintiff ’s]
Minnesota wrongful death claim had expired, [he]
(through counsel) filed a complaint in federal district
court under 42 U.S.C. § 1983.” Id. at 683. Albeit stated
in dictum, this shows the distinct difference between a
wrongful death state action and a § 1983 suit.9 The
Guled court plainly stated that “[a]s a trustee, [plaintiff ] would have standing to pursue a § 1983 claim.”
9

Significantly, if the three-year suit commencement period
implicated federal subject matter jurisdiction, as Defendants contend, the Eighth Circuit could have raised the issue sua sponte. A
“court has a special obligation to consider whether it has subject
matter jurisdiction in every case. This obligation includes the concomitant responsibility to consider sua sponte [the court’s subject
matter] jurisdiction . . . where . . . [the court] believe[s] that jurisdiction may be lacking.” Hart v. United States, 630 F.3d 1085,
1089 (8th Cir. 2011) (alterations in original) (internal citations
and quotations omitted).

App. 41
Id. at 685. In short, neither in Guled nor in any other
precedent has the Eighth Circuit indicated that state
survival law is relevant for anything other than ascertaining who may assert a § 1983 claim after a decedent’s death. Stated more broadly, this Court finds no
support in federal case law for Defendants’ proposition
that courts deciding a § 1983 action should defer to a
state’s rules regarding the statute of limitations contained in its wrongful death statute.
And for good reason. It is well established that
courts borrow from an entirely different state statute
to determine the limitations period applicable to § 1983
claims. Wilson v. Garcia, 471 U.S. 261, 266 (1985), superseded by statute on other grounds by 28 U.S.C. § 1658(a)
as recognized in Jones v. R.R. Donnelley & Sons Co.,
541 U.S. 369, 377–81 (2004). In Wilson v. Garcia, noting
the absence of federal law containing a specific statute
of limitations for § 1983 actions, the Supreme Court interpreted § 1988’s borrowing mandate as a “directive
to select, in each State, the one most appropriate statute of limitations for all § 1983 claims.” Id. at 275 (emphasis added). And concluding that Congress “would
have characterized § 1983 as conferring a general remedy for injuries to personal rights,” the Wilson Court
held that “§ 1983 claims are best characterized as personal injury actions” for statute of limitations purposes. Id. at 278–80.
A few years after Wilson, the Supreme Court considered which statute of limitations would apply to
§ 1983 claims in states with multiple statutes of limitations for personal injury actions. Owens v. Okure, 488

App. 42
U.S. 235 (1989). In Owens v. Okure, the Supreme Court
held that in such a case, courts should borrow “the residual or general personal injury statute of limitations” of the forum state. Id. at 236. Thus, as the Eighth
Circuit has repeatedly recognized, under Wilson and
Owens, all § 1983 actions filed in Minnesota are subject to the six-year statute of limitations contained
in the state’s personal injury statute, Minn. Stat.
§ 541.05, subdivision 1(5). Egerdahl v. Hibbing Cmty.
Coll., 72 F.3d 615, 618 n. 3 (8th Cir. 1995); see also
Anunka v. City of Burnsville, 534 F. App’x 575, 576 (8th
Cir. 2013) (per curiam).
Notwithstanding Wilson and Owen’s [sic] clear directives that the statute of limitations applicable to all
§ 1983 claims filed in Minnesota is six years, and that
this period has not yet expired, Defendants urge this
Court to hold that Plaintiff ’s federal claims are timebarred. In an attempt to reconcile their position with
Wilson and Owens, Defendants argue that Minnesota’s
wrongful death statute “retains” the proper six-year
statute of limitations, so “[it] continues to apply here,
together with the condition precedent for bringing
wrongful death suits within three years of death.” (City
Defs.’ Reply [Doc. No. 131] at 17.) The critical flaw in
Defendants’ arguments is that they ask this Court to
apply Minnesota’s survivorship and wrongful death
law to § 1983 cases wholesale. (See id. at 16 (“If ‘state
survival statutes govern survival of personal injury actions,’ then Minnesota’s survival statute bars this action because Plaintiff attempted to bring it as trustee
more than three years after Plaintiff ’s death.” (quoting

App. 43
Andrews, 253 F.3d at 1056–57)); id at 17 (“[T]his Court
should apply Minnesota’s survivorship law to § 1983
cases.”).) That is not the law. Under Guled, Andrews,
Williams, and related cases, this Court must look to
Minnesota’s survival law only for the purposes of determining standing, or “who” may bring § 1983 claims
after a decedent’s death.10 And under Wilson and Owens, this Court looks to Minnesota’s personal-injury
statute to determine the statute of limitations period
that applies to those actions.11 The Eighth Circuit has
followed this approach in numerous cases decided after
Wilson. See, e.g., DeVries v. Driesen, 766 F.3d 922, 923
(8th Cir. 2014) (“In Wilson v. Garcia, the Supreme
Court held that the state statute of limitations for personal injury torts was the appropriate period of limitations for all § 1983 cases.” (emphasis added)); Ketchum
v. City of W. Memphis, 974 F.2d 81, 82 (8th Cir. 1992)
(“[T]he Supreme Court held that § 1983 claims . . . are
to be governed by th[e] state’s general personal-injury
statute of limitations, not by particular state statutes
covering particular torts.”).

10

After the Eighth Circuit issued the Guled opinion, Defendants filed a letter arguing that it supported their position. (Defs.’
Letter to the District Judge [Doc. No. 134]; see also Pl.’s Letter to
the District Judge [Doc. No. 135].) For the reasons already described, Guled does not support Defendants’ position.
11
That is also why, more fundamentally, Defendants’ argument that Minnesota’s wrongful death statute “retains” a sixyear statute of limitations is flawed. Under Wilson, the fact that
§ 573.02 “retains” a six-year limitations period, as Defendants
contend, even if true, is irrelevant. No limitations period from
that statute could apply to a § 1983 case.

App. 44
It should also be noted that Defendants’ position
is contrary to Wilson’s objectives of furthering the “federal interests in uniformity, certainty, and the minimization of unnecessary litigation.” 471 U.S. at 275. Were
this Court to adopt Defendants’ arguments and defer
to the rules established by Minnesota courts regarding
the statute of limitations applicable to § 573.02 suits,
§ 1983 actions to recover damages for wrongful death
would be subject to different limitations periods depending on the facts of the case. For instance, although
Minnesota law provides that most actions for wrongful
death must be brought within three years of the decedent’s death, cases involving murder are subject to
an exception. See Huttner v. State, 637 N.W.2d 278,
283 (Minn. Ct. App. 2001). This “murder exception”
provides that “[a]n action to recover damages for a
death caused by an intentional act constituting murder may be commenced at any time after the death of
the decedent.” Id. (quoting Minn. Stat. § 573.02, subdiv.
1) (holding that a plaintiff-trustee’s claims were not
barred by her failure to serve certain defendants
within three years of the decedent’s death). Thus, if
this Court were to defer to Minnesota courts’ rules
regarding the various limitations periods applicable
to wrongful death actions, § 1983 plaintiffs alleging
wrongful death caused by murder would not be subject
to the three-year suit commencement “condition precedent” to bringing suit. Wilson sought to foreclose this
type of case-by-case determination of the limitations
period by announcing a bright-line rule. See Wilson,
471 U.S. at 273–74. Accordingly, this Court holds that

App. 45
because the applicable six-year limitations period has
not yet expired, Plaintiff ’s § 1983 claims are timely.
This Court’s conclusion is fully supported by a decision of a federal district court within this District,
Baxter-Knutson v. Brandt, No. 14-3796 (ADM/LIB),
2015 WL 4633590 (D. Minn. Aug. 3, 2015). In BaxterKnutson, the plaintiff ’s son committed suicide while in
custody at the Stearns County Jail. Id. at *1–2. More
than three years later, the plaintiff was appointed trustee for her son’s next-of-kin under § 573.02. Id. at *2.
Two months later—by then almost four years after her
son’s death—the plaintiff filed a complaint seeking recovery of damages under § 1983. Id. The defendants
brought a motion for summary judgment, arguing that
the three-year limitations period for claims arising under § 573.02 had expired. Id. at *3. The court denied
the motion. Id. at *5. It concluded that the plaintiff had
standing to bring § 1983 claims by virtue of § 573.02,
and that her claims were timely under Minn. Stat.
§ 541.05, subdivision 1(5), which “governs the limitations period for § 1983 claims in Minnesota” Id. at *4–
5. The Baxter-Knutson court conducted a thorough
analysis of Robertson, Wilson, and Owens, and, like
this Court, concluded that “[t]here is no support” in the
text of Wilson or Owens for the notion that the plaintiff ’s § 1983 action should have been brought within
three years of the decedent’s death. Id. The BaxterKnutson court stressed that subsequent Eighth Circuit
cases support the proposition that “Wilson and Owens
extended their statute of limitations reasoning to wrongful death suits,” and that other circuits have similarly

App. 46
declined to draw a distinction between § 1983 claims
for wrongful death and other § 1983 actions. Id. at *5
(collecting cases).
Defendants contend that Baxter-Knutson was
wrongly decided. (See, e.g., City Defs.’ Mem. at 8.) They
argue that Baxter-Knutson erroneously “separated the
requirements in Minn. Stat. § 573.02 that a trustee be
appointed, and that the appointed trustee bring suit
within three years, calling the former a standing issue
and the latter a statute of limitations issue.” Id. Indeed, Baxter-Knutson separated these requirements.
But it was correct in doing so because that is precisely
the approach that the Supreme Court has instructed
courts to take. In § 1983 actions, “[courts] look to state
law to determine who is a proper plaintiff,” Guled, 869
F.3d at 683 (quoting Andrews, 253 F.3d at 1056), and
“[w]ith regard to the limitations period, the law could
not be more straightforward: courts look to the state
personal injury statute of limitations and its attendant
tolling provisions.” Ray v. Maher, 662 F.3d 770, 774 (7th
Cir. 2001). “When” a plaintiff must file a § 1983 suit,
therefore, has nothing to do with Minnesota’s wrongful
death statute, as this Court and Baxter-Knutson have
concluded.
In sum, this Court concludes that Plaintiff has
standing to assert the § 1983 claims contained in his
Second Amended Complaint even though he was appointed trustee more than three years after Anderson’s
death. Moreover, because the six-year statute of limitations has not yet expired, Plaintiff ’s § 1983 claims

App. 47
are timely. Accordingly, this Court has jurisdiction over
Counts I–IV of the Second Amended Complaint.
3. Jurisdiction over State Law Claims
Defendants contend that Plaintiff’s state law claims
—gross negligence and negligent undertaking—are
also governed by Minn. Stat. §§ 573.01–.02 and should
likewise be dismissed because Plaintiff failed to bring
them as trustee within three years of Anderson’s
death. (City Defs.’ Mem. at 9–11; City Defs.’ Reply at
18–21; McGinness & Pham Reply [Doc. No. 130] at 5–
6.) Plaintiff responds that he did not plead wrongful
death, and thus § 573.02 is irrelevant to his state law
claims. He argues that even his state law claims are
subject to the six-year statute of limitations that govern his § 1983 claims. (Pl.’s Opp’n [Doc. No. 128] at
24–26.) To reach that conclusion, Plaintiff asserts that
because his federal and state law claims “together
encompass one ‘constitutional case’ ” under principles
of supplemental jurisdiction, and because this Court
must apply federal procedural law to the entire case,
all his claims are subject to the same six-year statute
of limitations. (Id.) In the alternative, Plaintiff argues
that were this to Court [sic] conclude that a three-year
statute of limitations applies to his state law claims,
those claims “relate back” to the date he filed his First
Complaint (which was within three years of Anderson’s death). (Id. at 27–30.)

App. 48
a. Applicable Statute of Limitations
This Court’s subject matter jurisdiction over Plaintiff ’s Second Amended Complaint is based on federal
question jurisdiction for the § 1983 claims, Counts I–
IV, and on supplemental jurisdiction for the state law
claims, Counts V–VI. See 28 U.S.C. § 1367; United Mine
Workers of Am. v. Gibbs, 383 U.S. 715 (1966). Under
Erie R.R. v. Tompkins, 304 U.S. 64 (1938), state substantive law governs claims over which a federal court
exercises supplemental jurisdiction. See Witzman v.
Gross, 148 F.3d 988, 990 (8th Cir. 1998) (citing Gibbs,
383 U.S. at 726). Accordingly, while federal law provides the substantive law for Plaintiff ’s § 1983 claims
and the procedural law for the entire case, state law
provides the substantive law for Plaintiff ’s state law
claims.
At the outset, this Court concludes that Plaintiff ’s
two state law claims—negligence and negligent undertaking—are governed by Minn. Stat. § 573.02 despite
Plaintiff ’s failure to plead them as wrongful death
claims. As explained above, Minnesota law provides
that “a cause of action arising out of an injury to the
person dies with the person of the party in whose favor
it exists, except as provided in section 573.02.” Minn.
Stat. § 573.01. Counts V and VI allege injury to Anderson; thus, Plaintiff may only assert those claims as part
of an action under § 573.02. Cf. Stuedemann v. Nose,
713 N.W.2d 79, 83 (Minn. Ct. App. 2006) (setting forth
the elements that a party must prove in a negligencebased wrongful death action).

App. 49
Turning now to the critical question presented—
which statute of limitations applies—this Court concludes that Counts V and VI are subject to the threeyear limitations period contained in § 573.02. The
statute of limitations applicable to state law claims is
undoubtedly a matter of state substantive law. See
Erie, 304 U.S. at 64; Guar. Tr. Co. v. York, 326 U.S. 99,
110 (1945); Saxton v. ACF Indus., Inc., 254 F.3d 959,
961–62 (11th Cir. 2001) (en banc) (“Alabama law provides the applicable statute of limitations” for federal
court sitting in diversity deciding state law claims);
Larsen v. Mayo Med. Ctr., 218 F.3d 863, 866 (8th Cir.
2000) (“Minnesota’s substantive law, including its statute of limitations, applies.”). And as discussed at length
above, claims under § 573.02 must be brought by a
court-appointed trustee within three years of the decedent’s death unless murder is involved. Accordingly,
because Plaintiff did not bring Counts V and VI as
trustee within three years of Anderson’s death, his
claims would be time-barred unless they can relate
back to a timely complaint.
b. Relation Back
Plaintiff contends that Counts V and VI relate
back to the date of the First Complaint. (See Pl.’s
Opp’n. at 27–28.) He argues that federal law, namely,
Federal Rule of Civil Procedure 15, governs and allows
relation back. (Id. at 27, 29.) Plaintiff cites two Eighth
Circuit cases, Russell v. New Amsterdam Casualty Co.,
303 F.2d 674 (8th Cir. 1962), and Crowder v. Gordons
Transports, Inc., 387 F.2d 413 (8th Cir. 1967), where

App. 50
relation back was allowed, for the general proposition
that “[c]ourts have routinely allowed changes in the legal capacity in which plaintiffs bring suit without requiring the filing of a new complaint or facing statute
of limitations bars.” (Id. at 28–29). He argues that in
so doing, “courts reason that defendants are put on adequate notice by the filing of a complaint and that the
change in capacity does not effect a material substantive change to the complaint,” presumably referring to
the relation back analysis under Rule 15(c)(3). (Id.) Defendants do not explicitly state whether they challenge
Plaintiff ’s position that Rule 15 applies. (See, e.g., City
Defs.’ Reply at 20–21.) However, they reiterate that under Minnesota law, the First Complaint was a “legal
nullity,” and therefore cannot serve as the foundation
for an amendment. (Id.)
At the outset, this Court agrees with Plaintiff that
federal law controls the issue of relation back. While
this Court would ordinarily conduct a choice-of-law
analysis under Erie and its progeny, the Eighth Circuit
has already held that “the issue of relation back is one
of procedure and is controlled by the Federal Rules of
Civil Procedure.” Crowder, 387 F.2d at 416 (relying
on Russell, 303 F.2d at 680–81, and Hanna v. Plumer,
380 U.S. 460 (1965)); see also Estate of Butler ex rel.
Butler v. Maharishi Univ. of Mgmt., 460 F. Supp. 2d
1030, 1040 (S.D. Iowa 2006).12 Nevertheless, this Court
12

The Court notes that at least one subsequent Eighth Circuit opinion considering relation back “prefer[red] to engage in
the Hanna analysis anew rather than rely on the authority of
Crowder” for the proposition that Federal Rule of Civil Procedure

App. 51
agrees with Defendants that even applying federal
procedural law, Counts V and VI do not relate back
to Plaintiff ’s First Complaint, as that complaint was
“no[t] a valid action to which [Plaintiff ’s] amended
complaint could relate back.” Capers v. Nat’l R.R. Passenger Corp., 673 F. App’x 591, 594 (8th Cir. 2016).
Two Eighth Circuit cases guide this Court’s analysis. The first, which is directly on-point, is Williams v.
Bradshaw, already mentioned above. Relevant here, in
addition to holding that the plaintiff lacked § 1983
standing, Williams also considered whether the district court had abused its discretion in denying the
plaintiff ’s motion to amend her original complaint. Id.
at 849. To cure the standing defect, the plaintiff sought
to amend her original complaint to reflect her new status as special administrator of the decedent’s estate,
which would allow her to bring her claims. Id. By then,
however, the limitations period had run. Id. at 848. The
Eighth Circuit held that the district court had properly
denied the plaintiff ’s motion to amend, as granting it
“would have been impossible.” Id. at 849 (citing Jones
ex rel. Jones v. Corr. Med. Servs., 401 F.3d 950, 952
(8th Cir. 2005)). The Eighth Circuit reasoned that because the plaintiff lacked standing when she filed her
15(c) supplies the rule of decision for relation back questions.
Brown v. E.W. Bliss Co., 818 F.2d 1405, 1408 n.2 (8th Cir.), adhered to by, 831 F.2d 810 (8th Cir. 1987). The rationale for doing
so was that the federal rule was more restrictive than the state
rule in that case, which created the possibility that applying the
federal rule would impair state substantive rights. Id. These concerns are not present here, since application of the federal rule is
not more restrictive than application of the state rule.

App. 52
original complaint, that complaint was “null.” Id. The
Court stated, “When, as here, a complaint amounts to
a nullity, it cannot serve as the foundation for an
amendment: Since the original complaint was without
legal effect, there was nothing to amend.” Id. The plaintiff ’s claims were thus time-barred.
Albeit under slightly different factual circumstances, the Eighth Circuit reached the same conclusion in Capers v. National Railroad Passenger Corp. In
Capers, the plaintiff filed suit against Amtrak alleging
that she had been sexually assaulted by an Amtrak
porter. 673 F. App’x at 592. Within the statute of limitations, the plaintiff filed her complaint under the
pseudonym “Jane Doe No. 49.” Id. She had not, however, sought leave from the district court to proceed
anonymously. Id. at 592–93. It was only after the
statute of limitations had expired that she filed an
amended complaint disclosing her identity. Id. at 593.
Before the Eighth Circuit, the plaintiff argued, inter
alia, that her amended complaint related back to her
original filing under Federal Rule of Civil Procedure
15. Id. at 593–94. The Eighth Circuit disagreed. First,
it noted that although it “generally appl[ies] federal
law on procedural matters like amendability, [it] defer[s] to state law as to considerations that form an integral part of the state statute of limitations, at least
in the absence of a federal rule directly on point.” Id.
at 594 (internal quotation marks and citations omitted). Applying this principle, the Eighth Circuit concluded that Arkansas law controlled and precluded
relation back. Id. But particularly relevant here, the

App. 53
Eighth Circuit also concluded that “even if the directconflict analysis of Hanna v. Plumer . . . required [it] to
apply Federal Rule 15, there would be no valid action
to which [the plaintiff ’s] amended complaint could relate back.” Id. That was because “[u]nder Federal Rule
10(a), she failed to initiate a valid action at least until
she sought to amend her complaint, by which time the
statute of limitations had run, as she was not properly
before the court until then, if at all.” Id. at 594–95.
Williams and Capers thus counsel that Rule 15
does not permit relation back when there is “no valid
action” which can serve as the foundation for an amendment. Applying that principle here, it is not possible for
Counts V and VI of Plaintiff ’s Second Amended Complaint to relate back to the date of the First Complaint
because that complaint was not a “valid” action: Plaintiff lacked standing to bring any of the state claims asserted therein because he was not a court-appointed
trustee. Cf. Mandacina v. United States, 328 F.3d 995,
1000 (8th Cir. 2003) (“The relation back doctrine allows
untimely claims to be deemed timely by treating the
claims as if they had been filed when the timely claims
were filed.”) Although Plaintiff filed his First Complaint on December 8, 2016, a few days short of the
three-year anniversary of Anderson’s death, he did not
obtain trustee status until March 9, 2017—by then
more than three years and two months after Anderson’s death. Accordingly, as in Williams and Capers,
Counts V and VI cannot relate back to the date of the

App. 54
First Complaint because that complaint is not a valid
foundation for relation back purposes.13
The Court acknowledges that this result is opposite to that reached by the Eighth Circuit in Crowder,
which the Plaintiff relies on in support of his position.
Crowder, however, precedes Williams and Capers and
is distinguishable. In Crowder, the plaintiff filed a complaint in federal district court seeking damages for the
wrongful death of her husband. 387 F.2d at 414. At that
time, the applicable Missouri statute provided that
wrongful death actions were subject to a one-year limitations period. Id. at 415. The statute further provided
that “[t]he surviving spouse ha[d] the right to institute
the action within six months after the death of the deceased,” but that if she failed to do so, the surviving
minor children could institute the action within the
one-year limitations period. Id. (citing Forehand v.
Hall, 355 S.W.2d 940 (Mo. 1962)). The plaintiff originally filed her complaint in her capacity as “administratrix of the estate of the decedent,” and although she
filed it within a year of her husband’s death, she did
not file it within six months. Id. at 414–15. After the
one-year limitations period had expired, the plaintiff
amended her complaint to reflect her status as “mother
and next friend” of the decedent’s two minor children.
Id. at 414. The Eighth Circuit considered whether the
13

The Court notes that although Plaintiff in fact amended
his First Complaint twice, Defendants have always stated their
position that any amendments would not relate back because the
First Complaint was a “nullity.” (See City Defs.’ Letter to the District Judge [Doc. No. 35].)

App. 55
amended complaint related back to the date of the original complaint. Id. at 415–19. Applying Federal Rules
of Civil Procedure 15 and 17, the court held that the
amended complaint related back. Id.
Although Crowder permitted relation back, the critical distinction here is the validity of the original complaint. In contrast to Williams and Capers, Crowder in
no way indicated that the original complaint was without legal effect under state law. To the contrary, the
Eighth Circuit noted that it was “firmly established
that . . . the action was filed within the time fixed by
Missouri law for the commencement of wrongful death
actions by children of the party wrongfully killed.” Id.
at 415. This case presents an entirely different situation. Under Minnesota law, Plaintiff ’s First Complaint
“ha[d] no legal effect.” Ortiz, 590 N.W.2d at 123. Thus,
here, unlike in Crowder, there simply was no valid action instituted before the expiration of the statute of
limitations.14
In sum, this Court concludes that Counts V and VI
of the Second Amended Complaint are untimely and

14

The Court notes that the result would be the same had it
concluded that Minnesota rules, and not the Federal Rule of Civil
Procedure, control. In Ortiz, the Minnesota Supreme Court held
that Minnesota Rules of Civil Procedure 15.03 and 17.01 do not
allow for relation back when the complaint filed within the statute of limitations is not brought by a duly-appointed trustee. 590
N.W.2d at 122–124. Thus, Minnesota law would undoubtedly preclude relation back in this case. See Regie, 399 N.W.2d at 92.

App. 56
that they do not relate back to the date of the First
Complaint. Accordingly, they are dismissed.15
Having found jurisdiction over Plaintiff ’s § 1983
claims, the Court now addresses Defendants’ arguments advanced under Federal Rule of Civil Procedure
12(b)(6).
B. Rule 12(b)(6) Motions
1. Standard of Review
When evaluating a motion to dismiss under Rule
12(b)(6), the Court assumes the facts in the complaint
to be true and construes all reasonable inferences from
those facts in the light most favorable to the plaintiff.
Hager v. Arkansas Dep’t of Health, 735 F.3d 1009, 1013
(8th Cir. 2013). The Court, however, need not accept as
true wholly conclusory allegations, Hanten v. Sch. Dist.
of Riverview Gardens, 183 F.3d 799, 805 (8th Cir. 1999),
or legal conclusions that plaintiffs draw from the facts
pled, Westcott v. City of Omaha, 901 F.2d 1486, 1488
(8th Cir. 1990). “To survive a motion to dismiss, a complaint must contain sufficient factual matter, accepted
as true, to ‘state a claim to relief that is plausible on
its face.’ ” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007)). A claim is facially plausible “when the plaintiff
pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for
15

Because this Court dismisses Counts V and VI as untimely, it need not address Defendants’ alternative arguments as
to these claims, e.g. service and official immunity.

App. 57
the misconduct alleged.” Id. (citing Twombly, 550 U.S.
at 556). “Threadbare recitals of the elements of a cause
of action, supported by mere conclusory statements, do
not suffice.” Id. (citing Twombly, 550 U.S. at 555). A
complaint must contain facts with enough specificity
“to raise a right to relief above the speculative level.”
Twombly, 550 U.S. at 555.
2. Section 1983 Claims Against the Individual Defendants—Counts I & II
Morey, Mahoney, and the Individual MFD, HCMC,
MPD and MPRB Defendants (all collectively, “Individual Defendants”) are sued in their individual capacities.16 (See Second Am. Compl. at 5–9, ¶¶ 7–24). They
move to dismiss Counts I–II for failure to state a claim
upon which relief may be granted and under the doctrine of qualified immunity. (See Cty. Defs.’ Mem. at
15–31; Cty. Defs.’ Reply at 8–9; City Defs.’ Mem. at 15–
23; McGinness & Pham Mem. at 7–14). Because district courts have an obligation to “resolv[e] immunity
questions at the earliest possible stage in litigation,”
Hunter v. Bryant, 502 U.S. 224, 227 (1991) (per curiam),
this Court will analyze qualified immunity at the outset.
“The doctrine of qualified immunity protects government officials ‘from liability for civil damages insofar as their conduct does not violate clearly established
statutory or constitutional rights of which a reasonable
16

Morey and Mahoney are also sued in their official capacities. See infra.

App. 58
person would have known.’ ” Pearson v. Callahan, 555
U.S. 223, 231 (2009) (quoting Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982)). Qualified immunity is an affirmative defense that a plaintiff need not anticipate to
state a claim. See Hafley v. Lohman, 90 F.3d 264, 266
(8th Cir. 1996); see also Jackson v. Schultz, 429 F.3d
586, 589 (6th Cir. 2005). However, if the defense is
raised on a 12(b)(6) motion, it will be upheld if the immunity is established “on the face of the complaint.”
Bradford v. Huckabee, 394 F.3d 1012, 1015 (8th Cir.
2005); see also Weaver v. Clarke, 45 F.3d 1253, 1255 (8th
Cir. 1995). Thus, the Individual Defendants are entitled to qualified immunity unless this Court determines that (1) Counts I and II state a plausible claim
for a violation of a constitutional right, and (2) that
right was “clearly established at the time of the alleged
infraction.” Hager, 735 F.3d at 1013–14; see also
Mitchell v. Forsyth, 472 U.S. 511, 526 (1985) (“Unless
the plaintiff ’s allegations state a claim of violation of
clearly established law, a defendant pleading qualified
immunity is entitled to dismissal before the commencement of discovery.”). This Court has discretion to
decide which of these two prongs it analyzes first. Pearson, 555 U.S. at 236.
a. Violation of a Constitutional Right
Counts I and II allege that the Individual Defendants violated Anderson’s “substantive due process
right to life and . . . bodily integrity” secured by the
Fourteenth Amendment. (Second Am. Complaint ¶ 151;
see also ¶ 172.) Specifically, Plaintiff alleges that the

App. 59
Individual Defendants violated Anderson’s substantive due process rights by failing to perform an adequate medical assessment and by failing to render
any medical treatment when they encountered him.
(Id. ¶ 241.) In so doing, Plaintiff avers, the Individual
Defendants contravened well-established medical protocols and operating procedures derived from the wellknown medical axiom that “a person is not dead until
they are warm and dead.” (Id.) Plaintiff argues that the
Individual Defendants thus deprived Anderson “of his
Constitutional right to life and bodily integrity, and denied his chance of survival.” (Id. ¶ 81.)
The Due Process Clause of the Fourteenth Amendment provides that “[n]o State shall . . . deprive any
person of life, liberty, or property, without due process
of law.” U.S. Const. amend. XIV. In DeShaney v. Winnebago County Department of Social Services, the Supreme Court held that the “[Due Process] Clause is
phrased as a limitation on the State’s power to act,”
and thus “generally confer[s] no affirmative right to
governmental aid, even where such aid may be necessary to secure life, liberty, or property interests of
which the government itself may not deprive the individual.” 489 U.S. 189, 195–96 (1989). Thus, DeShaney
established that the government has no general constitutional duty to provide police protection or other
similar protective services. See Gladden v. Richbourg,
759 F.3d 960, 964 (8th Cir. 2014) (citing DeShaney, 489
U.S. at 196).
There are, however, two exceptions to this general
rule. First, pursuant to the “custody” exception, “when

App. 60
the State takes a person into its custody and holds him
there against his will, the Constitution imposes upon
it a corresponding duty to assume some responsibility
for his safety and general well-being.” DeShaney, 489
U.S. at 199–200; accord Montgomery v. City of Ames,
749 F.3d 689, 694 (8th Cir. 2014). Second, under the
“state-created danger” exception, a similar constitutional duty arises when the state itself creates or amplifies the danger to which an individual is exposed.
Fields v. Abbott, 652 F.3d 886, 891 (8th Cir. 2011);
Montgomery, 749 F.3d at 694. Even in these situations,
however, state officials are liable for breaching this
duty “only if their actions are so egregious or outrageous as to ‘shock the contemporary conscience.’ ” Dodd
v. Jones, 623 F.3d 563, 567 (8th Cir. 2010) (quoting Cty.
of Sacramento v. Lewis, 523 U.S. 833, 847 n.8 (1998)).
The Individual Defendants argue that Plaintiff ’s
Second Amended Complaint fails to state a violation of
Anderson’s due process rights—and thus that they are
entitled to qualified immunity—because neither of the
two DeShaney exceptions were triggered in this case.
(See, e.g., City Defs.’ Mem. at 15–20.) They argue that
Plaintiff alleges no facts from which this Court could
reasonably infer that Anderson was in their custody, or
that they affirmatively created or exacerbated the danger that Anderson faced that day. (Id.) Absent a constitutional duty to act, the Individual Defendants argue,
they cannot be held liable under the Due Process
Clause. (Id.) Plaintiff disagrees. (Pl.’s Opp’n at 36–70.)
He argues that he has plausibly pled both that the
Individual Defendants held Anderson in “functional”

App. 61
custody, (id. at 44–49), and that they increased the
danger to him, (id. at 49–61).
This Court must begin its analysis by stating
clearly again that the circumstances of this case are
very tragic. A young university student was found by a
passerby out in the cold, exposed to sub-zero ambient
temperatures. As any other good citizen might do, the
passerby called on the state to help. The young man,
however, was declared dead on the scene, despite the
possibility that he might still have been alive. This
Court has enormous sympathy for the Anderson family’s loss, but it nevertheless must conclude that Plaintiff has not stated a claim for a violation of Anderson’s
substantive due process rights. Almost certainly, Plaintiff has stated a claim for negligence, or even gross negligence.17 But even construing all reasonable inferences
in Plaintiff ’s favor, his Second Amended Complaint
fails to plausibly allege a substantive due process violation.
First, Plaintiff has not plausibly alleged that the
Individual Defendants created or amplified the danger
to Anderson. The state-created danger theory requires
that state officials “act[ ] affirmatively to place someone in a position of danger that he or she would not
otherwise have faced” before a constitutional duty to
render protective services will arise. S.S. v. McMullen,
225 F.3d 960, 962 (8th Cir. 2000) (en banc) (emphasis
added) (holding that complaint was properly dismissed
17

As described, supra, however, Plaintiff ’s state law claims
are barred by the statute of limitations.

App. 62
where the state returned a child to an already existing
dangerous environment, concluding that such conduct
was effectively the same as “do[ing] nothing”); see also
Carlton v. Cleburne Cty., 93 F.3d 505, 508–09 (8th Cir.
1996) (collecting cases where liability has been found
under the state-created danger theory, noting that in
all of them, “the individuals would not have been in
harm’s way but for the government’s affirmative actions”). Here, there simply is no allegation that state
actors were involved in the circumstances that led to
Anderson’s exposure to the cold in the first instance.
This is not a case like Riordan v. City of Joliet, which
Plaintiff relies on, where police officers affirmatively
took the plaintiff outdoors, exposing him to sub-zero
temperatures. 3 F. Supp. 2d 889, 892 (N.D. Ill. 1998). In
Riordan, police officers removed the plaintiff from an
ostensibly warm environment, transported him in the
back of their squad car, and then released him onto the
street, knowing he lacked adequate clothing and was
intoxicated. Id. at 894–95. The Riordan court denied
the officers’ motion for summary judgment on qualified
immunity grounds, concluding, inter alia, that the officers had affirmatively “placed Riordan in a manifestly
dangerous position.” Id. at 895 (emphasis added).
Nor has Plaintiff plausibly alleged that the Individual Defendants increased Anderson’s vulnerability
to the cold. Plaintiff argues that the Individual Defendants increased the risk to Anderson by “continuing to
keep [his] body exposed to the cold for an additional
two hours, declining to offer necessary medical assistance, and preventing help from reaching him.” (Pl.’s

App. 63
Opp’n at 52.) In essence, Plaintiff ’s argument is that
the Individual Defendants did not decrease the risk to
Anderson. That may very well be inferred. But failing
to avert danger is quite distinct from affirmatively increasing danger or one’s vulnerability to danger. See
Jackson v. City of Joliet, 715 F.2d 1200, 1202–06 (7th
Cir. 1983) (concluding that there was no liability where
officers did not create danger but merely failed to avert
it by not rescuing decedents from a burning car). Here,
the Individual Defendants in effect did nothing; they
retained the status quo. Such inaction, however, when
standing alone, although likely negligent, does not
trigger liability under the state-created danger theory.
See Dodd, 623 F.3d at 568 (finding no substantive due
process violation where some police conduct led to
risks to plaintiff that were “[no] greater than if the officers had retained the status quo upon their arrival”);
see also Avalos v. City of Glenwood, 382 F.3d 792, 799–
800 (8th Cir. 2004) (affirming summary judgment in
favor of defendants because they did not place party
claiming injury “in any greater danger than he otherwise would have faced”); Montgomery, 749 F.3d at 695
(no state-created danger where plaintiff merely alleged that defendants had “failed to timely respond to
[her] medical needs” after she had been shot); Carlton,
93 F.3d at 509 (“To impose an affirmative duty to protect the general public from a situation created by the
processes of nature would be to impose upon a county
an impossible burden.”)
Similarly, this Court concludes that Anderson was
not in the custody of Defendants so as to trigger the

App. 64
corresponding duty to protect. Courts have construed
the custody exception narrowly, and the Eighth Circuit
has held that “DeShaney-type liability can only be imposed ‘when the State by the affirmative exercise of its
power so restrains an individual’s liberty that it renders him unable to care for himself.’ ” Burton v. Richmond, 370 F.3d 723, 728 (8th Cir. 2004). For example,
in Lee v. Pine Bluff School District, dismissed at the
pleadings stage, the Eighth Circuit held that a student
was not in state custody during a school-sponsored
band trip. 472 F.3d 1026, 1031 (8th Cir. 2007). In evaluating whether the decedent was in the state’s custody,
the court looked to whether his attendance was compulsory, whether he was prohibited from leaving, or
whether he was prohibited from contacting his family
or seeking help. Id. Because there was no sign of any
restraint, the court held that the student’s voluntary
participation in the trip did not involve a custodial relationship. Id. Here, as in Lee, Plaintiff does not allege
any facts from which this Court could infer that the
Individual Defendants restrained Anderson or affirmatively prohibited him from seeking aid.
Notwithstanding the narrow reach of the custody
exception, Plaintiff urges this Court to infer that a custodial relationship existed here because the Individual
Defendants undertook to render aid to Anderson and
he relied on them “to adequately perform their promised duties of care to protect his life and provide him
with competent medical care.” (Second Am. Compl.
¶ 168.) But DeShaney explained that the affirmative
duty to protect under the custody exception “arises not

App. 65
from the State’s knowledge of the individual’s predicament or from its expressions of intent to help him, but
from the limitations which it has imposed on his freedom to act on his own behalf through imprisonment,
institutionalization, or other similar restraint of personal liberty.” 489 U.S. at 200. As already described,
Plaintiff alleges no facts from which this Court could
infer that Anderson’s freedom to act on his own behalf
was limited in any way. Plaintiff only states that Anderson’s ability to act on his own behalf was limited
because he was unconscious and in need of medical
help.
Those circumstances, however, do not render the
situation custodial. For instance, in a case with similar
facts, the Sixth Circuit held that an unconscious man
was not in custody, and therefore was not deprived of
his due process rights when he died after being placed
in an ambulance. See Jackson, 429 F.3d at 590–91. The
decedent in that case was suffering from a gunshot
wound and had fallen unconscious when an ambulance
arrived on the scene. Id. at 588. First responders loaded
the man into the ambulance, where they “watched him
die” without providing any life support or attempting
to take him to a trauma center, in contravention of
their department policies. Id. Nonetheless, the court
held that
the EMTs did nothing to restrain decedent.
The EMTs did not cause decedent to be shot
nor did they render him unconscious. There
is no allegation that the EMTs restrained or
handcuffed the decedent. There is no allegation

App. 66
that the decedent was not free to leave the
ambulance or be removed from the ambulance. Decedent’s liberty was “constrained” by
his incapacity, and his incapacity was in no
way caused by the defendants.
Id. at 591. Similarly, the Individual Defendants in this
case are not alleged to have constrained Anderson’s liberty by handcuffing him or applying some other restraint. Anderson’s liberty was regrettably constrained
by his incapacity, which was not caused by the Individual Defendants.
For all of the aforementioned reasons, this Court
is similarly unpersuaded by Plaintiff ’s contention that
Anderson was under custody because the Individual
Defendants “created a situation depriving [Anderson]
of any alternative avenue of rescue.” (Pl.’s Opp’n. at
47.) Plaintiff argues that the custody exception broadly
applies to situations where state actors “cut off alternative sources of aid,” relying on Martin v. ShawanoGresham Sch. Dist., 295 F.3d 701, 708 (7th Cir. 2002),
and Bynum v. City of Magee, 507 F. Supp. 2d 627, 632
(S.D. Miss. 2007). (Pl.’s Opp’n at 46–47.) While the
proposition that affirmatively cutting off alternative
sources of aid could evince custodial restraint may be
true generally, it has no application here. First, the
cases Plaintiff cites only affirm the general principle
that the rationale for the custody exception is that the
state would transgress “the substantive limits . . . set
by the Eighth Amendment and the Due Process Clause”
if it restrains an individual, rendering him unable to
care for himself—including by seeking aid from others—

App. 67
and yet declines to provide for his basic human needs.
DeShaney, 489 U.S. at 200; see Martin, 295 F.3d at 632
(state-created danger case merely stating general rule
that the state has no duty to protect unless “[it] has
custody of a person, thus cutting off alternate avenues
of aid, or if the state somehow created the danger of
harm”); Bynum, 507 F. Supp. 2d at 633 (holding that
no custodial relationship existed where plaintiff ’s son
committed suicide at home several days after being
taken there by police). Second, and more fundamentally, there is no allegation here that someone on the
scene in fact attempted to assist Anderson and was
prohibited from doing so. See Dodd, 623 F.3d at 567 (no
custodial relationship where there was no showing
that plaintiff “could have removed himself from the
roadway, or that a passersby would have moved him
out of [harm’s way]” if the officers had not arrived on
the scene). This Court cannot speculate, as Plaintiff
suggests, that “any bystander or other individual arriving on [the] scene would have been prevented from
approaching Jake, as the MPD would have prevented
such incursion.” Pl.’s Opp’n at 47–48; see Twombly, 550
U.S. at 555 (“Factual allegations must be enough to
raise a right to relief above the speculative level, on the
assumption that all the allegations in the complaint
are true (even if doubtful in fact).” (internal citations
omitted)).18 Simply, there is no indication here that
18

Plaintiff argues that “[t]he fact that the MFD responders
called off the paramedics’ response to the scene is evidence that
these defendants acted affirmatively to cut off alternative sources
of aid to Jake.” (Pl.’s Opp’n at 47.) But the Second Amended Complaint states that the paramedics, the Individual HCMC Defendants,

App. 68
Anderson was in “custody” as that term is construed in
DeShaney and its progeny.
Finally, even assuming that Plaintiff had plausibly alleged that the Individual Defendants had a constitutional duty to provide aid to Anderson, the Second
Amended Complaint nevertheless faces an insurmountable hurdle: the conduct alleged is not sufficiently “conscience-shocking” to give rise to a substantive due
process violation. Avalos, 382 F.3d at 800. “In order to
succeed, a complaint for a violation of substantive due
process rights must allege [state] acts that shock the
conscience.” S.S., 225 F.3d at 964. “Actionable substantive due process claims involve a level of abuse of
power so brutal and offensive that they do not comport
with traditional ideas of fair play and decency.” Avalos,
382 F.3d at 800 (alterations and quotation marks omitted); see also Moran v. Clarke, 296 F.3d 638, 647 (8th
Cir. 2002) (substantive due process violations involve
conduct “so severe . . . so disproportionate to the need
presented, and . . . so inspired by malice or sadism rather than a merely careless or unwise excess of zeal
that it amounted to a brutal and inhumane abuse of
official power literally shocking to the conscience” (alterations in original)). “To shock the conscience, . . .
an official’s action must either be motivated by an
intent to harm or, where deliberation is practical,
arrived nonetheless and in fact approached Anderson’s body. (Second Am. Compl. at ¶¶ 47–49.) There is no allegation that had the
Individual HCMC Defendants wished to assess Anderson, they
would have been prevented from doing so by the MFD Individual
Defendants. See Montgomery, 749 F.3d at 696.

App. 69
demonstrate deliberate indifference.” Montgomery, 749
F.3d 689, 695.
Plaintiff does not allege that the Individual Defendants acted with intent to harm; rather, he argues
that they acted with deliberate indifference and thus
their behavior shocks the conscience. (Pl.’s Opp’n. at
55–61.) Plaintiff highlights operating procedures that
he argues mandated that the Individual Defendants
initiate medical treatment upon encountering Anderson, and that their failure to follow them indicates deliberate indifference. (Id. at 58.) As just one example,
Plaintiff alleges that § 9-105.01 of the MFD Standard
Operating Procedures states that CPR must begin “immediately when patient is found cold in a cold environment,” and that an automated external defibrillator
should be applied “when a breathless, pulseless patient
does NOT have signs of obvious trauma consistent
with death.” (Second Am. Compl. at 19, ¶ 27.) He similarly points to § 9-104.03.04, which states that hypothermic patients must be rewarmed and that MFD
should be “aggressive” with hypothermic arrests. (Id.)
Plaintiff makes similar claims against the HCMC
Defendants, (see, e.g., id. ¶ 74), the MPD and MPRB
Defendants, (see id. ¶¶ 103–08), Mahoney, (id. ¶¶ 157–
63), and Morey, (id. ¶¶ 113–21). In all, Plaintiff argues
that the Individual Defendants “had time to make an
unhurried judgment in this situation,” “knew of the potential for hypothermia in cold weather conditions,”
should have understood that medically “a person
cannot be declared dead unless he is warm,” yet “consciously disregarded [Anderson] and created a great

App. 70
risk of serious harm when they left him exposed to the
cold.” (Id. ¶¶ 125–28, 156.)
Even accepting Plaintiff ’s factual allegations as
true, and drawing all inferences in his favor, the Second Amended Complaint certainly adequately pleads
negligence and perhaps even gross negligence, but it
falls short of plausibly alleging deliberate indifference.
Deliberate indifference requires both that the state actors “be aware of facts from which the inference could
be drawn that a substantial risk of serious harm exists,” and that they actually draw that inference. Montgomery, 749 F.3d at 695 (quoting Hart v. City of Little
Rock, 432 F.3d 801, 805–06 (8th Cir. 2005)). To be sure,
Plaintiff has plausibly pled that the Individual Defendants knew or should have known that hypothermia victims may appear deceased even though they
are actually alive. And this Court could likewise infer
that these Defendants perhaps should have done more
before readily pronouncing Anderson dead on arrival.
But this Court finds no factual allegations in Plaintiff ’s Second Amended Complaint from which it could
infer that any of the Individual Defendants in fact recognized that Anderson might still be alive and yet “deliberately decided not to protect [him] from a known
substantial risk of serious harm.” Beck v. Wilson, 377
F.3d 884, 891 (8th Cir. 2004). To the contrary, Plaintiff
asserts that it was the Individual Defendants’ subjective failure to recognize that Anderson was a victim of
hypothermia that amounts to the due process violation. (See e.g., Pl.’s Opp’n at 59 (“While the individual
officers may claim to have believed Jake was dead, all

App. 71
of the medical literature on hypothermia, its pathophysiology and its effects on the body, would lead to the
objectively reasonable conclusion that Jake was a viable patient deserving and in need of emergency medical care, including rewarming.”) (emphasis added).)
Again, at most, the Individual Defendants’ alleged failure of judgment states a claim for negligence, even
gross negligence, but it does not state a claim for deliberate indifference. See S.S., 225 F.3d at 964 (explaining
that under the deliberate indifference standard, negligence, or even gross negligence, does not suffice).
This reasoning applies to all of the Individual Defendants. The Individual MFD Defendants were first
to arrive on the scene. These Defendants did not ignore
Anderson; they conducted a pulse check and determined that he was not breathing and had no pulse.
They also observed that Anderson had “scrapes and
cuts on his hand which appeared suspicious.” (See Aff.
of Tracey Fussy, Ex. 1 [Doc. No. 18-1], MFD Run Report
at 2.)19 While MFD Standard Operating Procedures
dictate that hypothermia victims should be given medical treatment, they also caution against disturbing a
crime scene, including moving the body of a deceased
individual unless necessary. (See Decl. of Ivan Ludmer,
19

On a motion to dismiss, this Court may consider the pleadings, “some public records, materials that do not contradict the
complaint, [and] materials that are ‘necessarily embraced by the
pleadings.’ ” Noble Systems Corp., 543 F.3d at 982 (quoting Porous
Media Corp. v. Pall Corp., 186 F.3d 1077, 1079 (8th Cir. 1999)).
Plaintiff ’s Second Amended Complaint embraces the reports and
operating procedures referenced and quoted here. (See, e.g., Second Am. Compl. at 24, ¶ 24.)

App. 72
Ex. A [Doc. No. 106-1], MFD Standard Operating Procedures § 12-102.03.) Although hindsight might suggest that these Defendants should have recognized
that Anderson might still be alive, and that they possibly weighed signs of potential foul play more heavily
than they should have, their behavior does not indicate
deliberate indifference.
The same can be said about the rest of the Individual Defendants. The Individual HCMC Defendants—
the next group to arrive on the scene—walked over to
where Anderson lay, noted that there was a “frozen
body near [the] river,” (id. ¶ 55), and deferred to MFD’s
determination that Anderson was deceased. True enough,
one might question why these trained paramedics declined to conduct an independent evaluation of Anderson. But as in DeShaney, “[t]he most that can be said
of the[se] [Defendants] . . . is that they stood by and
did nothing when suspicious circumstances dictated a
more active role for them.” 489 U.S. at 203. Even crediting Plaintiff’s contentions that these Defendants “summarily accepted the MFD’s conclusion that Jake
Anderson was ‘dead on arrival’, paying no heed to their
own duty to perform a full and complete patient assessment, ignoring their specific knowledge regarding hypothermia victims in the field, and failing to
transport Jake Anderson to the HCMC Emergency
Room,” (Second Am. Compl. ¶ 79), the most that can be
said is that these allegations state a claim for gross
negligence. As for the Individual MPD and MPRB Defendants, MPD reports likewise indicate not only that
Anderson appeared to be “frozen to death” and had a

App. 73
“blue” skin color, but that he had “[s]mall cuts/
scratches . . . on his face, hands[,] and . . . exposed legs,”
and that he was lying on “a snow-covered rock pile near
the river with his torso resting on a metal fence.” (Aff.
of Tracey Fussy, Ex. 3 [Doc. No. 18-3], MPD Case Report at 4, 7.) Again, the most that can be said is that
these Defendants, in light of all the facts available to
them, were grossly negligent in failing to question
whether Anderson might still be alive. As for Morey
and Mahoney, who were not even on the scene, it is difficult to see how they could have been deliberately indifferent to Anderson’s particular needs.
In sum, the collective response by the Individual
Defendants as pled may state a claim for negligence,
even gross negligence, when construed most favorably
to Plaintiff. But “[l]iability for negligently inflicted
harm is categorically beneath the threshold of constitutional due process, and the Constitution imposes no
obligation on the State to provide perfect or even competent rescue services.” Dodd, 623 F.3d at 568 (internal
citations omitted). Indeed, “an official’s failure to alleviate a significant risk that he should have perceived
but did not, while no cause for commendation cannot
under our cases be condemned.” Farmer v. Brennan,
511 U.S. 825, 838 (1970) (holding that the deliberate
indifference standard is a subjective, not objective,
test). More to the point, courts categorically hold that
“failure to rescue” claims alleging inadequate, or even
totally absent, medical treatment are not actionable
under § 1983 absent a custodial relationship or a statecreated danger. See, e.g., Brown v. Commonwealth of

App. 74
Pa. Dep’t of Health Emergency Med. Servs. Training
Inst., 318 F.3d 473, 478 (3d Cir. 2003) (“[T]here is no
federal constitutional right to rescue services, competent or otherwise.”); Weeks v. Portage Cty. Exec. Offices,
235 F.3d 275, 278 (6th Cir. 2000) (absent either of the
DeShaney exceptions, “the victim has no constitutional
right to have the police provide medical assistance or
intervene to protect him from the actions of private actors.”) This Court would, however, be remiss not to note
that “[i]t may well be that, by voluntarily undertaking
to protect [Anderson] against a danger it concededly
played no part in creating, the State acquired a duty
under state tort law to provide him with adequate protection against that danger.” DeShaney, 489 U.S. at
201–02. But as arguably condemnable as Defendants’
conduct may be in hindsight, “the Due Process Clause
of the Fourteenth Amendment . . . does not transform
every tort committed by a state actor into a constitutional violation.” Id. at 202
b. Clearly Established Right
In light of its conclusion that Plaintiff has not
plausibly alleged that the Individual Defendants violated Anderson’s substantive due process rights, this
Court need not reach the question of whether the
rights claimed to have been infringed were clearly established at the time of Anderson’s death. See Avalos,
382 F.3d at 801. And because the Second Amended
Complaint does not state a violation of a constitutional
right, the Individual Defendants are entitled to qualified immunity. Accordingly, all § 1983 claims asserted

App. 75
against the Individual Defendants in their individual
capacities are dismissed with prejudice. See Moore ex
rel. v. Briggs, 381 F.3d 771, 775 (8th Cir. 2004).
3. Section 1983 Claims Against the Municipalities—Counts III & IV
Plaintiff asserts two claims against the governmental entities that employ the Individual Defendants. Count III alleges that the City, the County, and
Mahoney provided deliberately indifferent training
and supervision.20 (See Second Am. Compl. ¶¶ 178–
225.) Count IV, titled “Municipal Liability for Negligent Performance of Duty by State Actor,” is asserted
against Morey and the Individual MFD, HCMC, MPD
and MPRB Defendants.21 (Id. ¶¶ 226–34.)
There are several ways municipalities may be held
liable under § 1983. “Section 1983 liability for a constitutional violation may attach to a municipality if the
violation resulted from (1) an official municipal policy;
(2) an unofficial custom; or (3) a deliberately indifferent failure to train or supervise.” Atkinson, v. City of
Mountain View, 709 F.3d 1201, 1214 (8th Cir. 2013) (quotation marks and citations omitted). Unconstitutional
20

Mahoney is sued in his official capacity as well as in his
individual capacity. (Second Am. Compl. at 5, ¶ 7.) “[A] suit against
a public official in his official capacity is actually a suit against
the entity for which the official is an agent.” Parrish v. Ball, 594
F.3d 993, 997 (8th Cir. 2010) (alterations and quotation marks
omitted).
21
Like Mahoney, Morey is sued in his official capacity. (Second Am. Compl. at 5, ¶ 8.)

App. 76
policy, custom, or failure to train claims against a municipality are often called “Monell claims” after Monell
v. Department of Social Services of City of New York,
436 U.S. 658 (1978). In Monell, the Supreme Court decided “that a municipality can be found liable under
§ 1983 only where the municipality itself causes the
constitutional violation at issue.” City of Canton v. Harris, 489 U.S. 378, 385 (1989). Municipalities may not be
held liable under § 1983 for injuries caused by their
agents or employees on a theory of vicarious liability
like respondeat superior. Id.; see also Atkinson, 709 F.3d
at 1214; Parrish, 594 F.3d at 997; Brockinton v. City of
Sherwood, 503 F.3d 667, 674 (8th Cir. 2007). Consistent
with these principles, the Eighth Circuit has repeatedly “recognized a general rule that, in order for municipal liability to attach, individual liability first must
be found on an underlying substantive claim.” McCoy
v. City of Monticello, 411 F.3d 920, 922 (8th Cir. 2005);
see also Brockinton, 503 F.3d at 674.
Under this framework, Counts III and IV fail as a
matter of law. Because this Court has concluded that
the Second Amended Complaint does not plausibly allege that any of the Individual Defendants violated
Anderson’s constitutional rights, the governmental entities involved cannot be held liable “on either an unconstitutional policy or custom theory or on a failure
to train or supervise theory.” McVoy, 411 F.3d at 922–
23 (dismissing the plaintiff ’s Monell claims against a
municipality where there was no individual § 1983
liability against the officers); Avalos, 382 F.3d at 802
(holding that the court’s decision that the officers were

App. 77
entitled to qualified immunity “ ‘necessarily resolve[d]’
the remaining claims in the municipal defendants’ favor,” as “there must be an unconstitutional act by the
municipal employee before the municipality is liable”
(quoting Lockridge v. Bd. of Trs. of the Univ. of Ark., 315
F.3d 1005, 1013 (8th Cir. 2003) (en banc)); see also City
of Canton, 489 U.S. at 385 (“[O]ur first inquiry in any
case alleging municipal liability under § 1983 is the
question whether there is a direct causal link between
a municipal policy or custom and the alleged constitutional deprivation.”). Accordingly, Count III and IV
must be dismissed.22
III. ORDER
Based on the foregoing, and all the files, records,
and proceedings herein, IT IS HEREBY ORDERED
THAT:
1.

22

Motion to Dismiss Pursuant to Federal Rules
of Civil Procedure 12(b)(1) and 12(b)(6) filed
by Defendants County of Hennepin, Hennepin

To the extent that Count III is asserted against Mahoney
in his individual capacity, he is not subject to liability for the same
reason. “[A] supervising officer can be liable for an inferior officer’s
constitutional violation only ‘if he directly participated in the constitutional violation, or if his failure to train or supervise the offending actor caused the deprivation.’ ” Parrish, 594 F.3d at 1001
(quoting Otey v. Marshall, 121 F.3d 1150, 1155 (8th Cir.1997)).
Moreover, Count IV cannot reach the municipalities to the extent
it is asserted against the Individual MFD, HCMC, MPD and
MPRB Defendants, as they were sued only in their individual capacities. To reach a municipality, a plaintiff must bring a § 1983
claim against a specific agent or employee in his or her official
capacity. See id.

App. 78
Healthcare System, Inc., Daniel Shively, Dr.
Mitchel Morey, and Dr. Brian Mahoney [Doc.
No. 96] is GRANTED as detailed herein;
2.

Motion to Dismiss Pursuant to Federal Rules
of Civil Procedure 12(b)(1) and 12(b)(6) filed
by Defendants City of Minneapolis, Shana D.
York, Anthony J. Buda, Raul A. Ramos, Daniel
J. Tyra, Shannon L. Miller, Dustin L. Anderson, Scott T. Sutherland, D. Blaurat, Emily
Dunphy, Christopher Karakostas, and Arlene
M. Johnson [Doc. No. 103] is GRANTED as
detailed herein;

3.

Motions to Dismiss Pursuant to Federal Rules
of Civil Procedure 12(b)(1) and 12(b)(6) filed
by Defendants Joseph McGinness and Calvin
Pham [Doc. No. 108], and Mathew Ryan and
Mathew George [Doc. No. 123], are GRANTED
as detailed herein; and

4.

This action is DISMISSED WITH PREJUDICE in its entirety.

LET JUDGMENT BE ENTERED ACCORDINGLY.
Dated: March 30, 2018

s/Susan Richard Nelson
SUSAN RICHARD NELSON
United States District Judge

